<html>
<title> - H.R. 2048, THE MOTOR VEHICLE OWNERS' RIGHT TO REPAIR ACT OF 2005 HEARING BEFORE THE SUBCOMMITTEE ON COMMERCE, TRADE, AND CONSUMER PROTECTION OF THE COMMITTEE ON ENERGY AND COMMERCE HOUSE OF REPRESENTATIVES ONE HUNDRED NINTH CONGRESS SECOND SESSION MAY 17, 2006 Serial No. 109-93 Printed for the use of the Committee on Energy and Commerce Available via the World Wide Web: http://www.access.gpo.gov/congress/house U.S. GOVERNMENT PRINTING OFFICE 29-471 WASHINGTON : 2006</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
                          H.R. 2048, THE MOTOR 
                         VEHICLE OWNERS' RIGHT 
                         TO REPAIR ACT OF 2005


                                 HEARING

                               BEFORE THE

                     SUBCOMMITTEE ON COMMERCE, TRADE, 
                         AND CONSUMER PROTECTION

                                 OF THE 

                         COMMITTEE ON ENERGY AND 
                                COMMERCE
                        HOUSE OF REPRESENTATIVES


                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION


                              MAY 17, 2006

                           Serial No. 109-93

       Printed for the use of the Committee on Energy and Commerce


Available via the World Wide Web:  http://www.access.gpo.gov/congress/house



                    U.S. GOVERNMENT PRINTING OFFICE
29-471                      WASHINGTON : 2006
_____________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; DC area (202) 
512-1800  Fax: (202) 512-2250  Mail: Stop  SSOP, Washington, DC 20402-0001



                    COMMITTEE ON ENERGY AND COMMERCE
                       JOE BARTON, Texas, Chairman
RALPH M. HALL, Texas                       JOHN D. DINGELL, Michigan
MICHAEL BILIRAKIS, Florida                   Ranking Member
  Vice Chairman                            HENRY A. WAXMAN, California
FRED UPTON, Michigan                       EDWARD J. MARKEY, Massachusetts
CLIFF STEARNS, Florida                     RICK BOUCHER, Virginia
PAUL E. GILLMOR, Ohio                      EDOLPHUS TOWNS, New York
NATHAN DEAL, Georgia                       FRANK PALLONE, JR., New Jersey
ED WHITFIELD, Kentucky                     SHERROD BROWN, Ohio
CHARLIE NORWOOD, Georgia                   BART GORDON, Tennessee
BARBARA CUBIN, Wyoming                     BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois                     ANNA G. ESHOO, California
HEATHER WILSON, New Mexico                 BART STUPAK, Michigan
JOHN B. SHADEGG, Arizona                   ELIOT L. ENGEL, New York
CHARLES W. "CHIP" PICKERING,  Mississippi  ALBERT R. WYNN, Maryland
  Vice Chairman                            GENE GREEN, Texas
VITO FOSSELLA, New York                    TED STRICKLAND, Ohio
ROY BLUNT, Missouri                        DIANA DEGETTE, Colorado
STEVE BUYER, Indiana                       LOIS CAPPS, California
GEORGE RADANOVICH, California              MIKE DOYLE, Pennsylvania
CHARLES F. BASS, New Hampshire             TOM ALLEN, Maine
JOSEPH R. PITTS, Pennsylvania              JIM DAVIS, Florida
MARY BONO, California                      JAN SCHAKOWSKY, Illinois
GREG WALDEN, Oregon                        HILDA L. SOLIS, California
LEE TERRY, Nebraska                        CHARLES A. GONZALEZ, Texas
MIKE FERGUSON, New Jersey                  JAY INSLEE, Washington
MIKE ROGERS, Michigan                      TAMMY BALDWIN, Wisconsin
C.L. "BUTCH" OTTER, Idaho                  MIKE ROSS, Arkansas                        
SUE MYRICK, North Carolina
JOHN SULLIVAN, Oklahoma
TIM MURPHY, Pennsylvania
MICHAEL C. BURGESS, Texas
MARSHA BLACKBURN, Tennessee


                    BUD ALBRIGHT, Staff Director
                   DAVID CAVICKE, General Counsel
       REID P. F. STUNTZ, Minority Staff Director and Chief Counsel


        SUBCOMMITTEE ON COMMERCE, TRADE, AND CONSUMER PROTECTION
                  CLIFF STEARNS, Florida, Chairman
FRED UPTON, Michigan              JAN SCHAKOWSKY, Illinois
NATHAN DEAL, Georgia                Ranking Member
BARBARA CUBIN, Wyoming            MIKE ROSS, Arkansas
GEORGE RADANOVICH, California     EDWARD J. MARKEY, Massachusetts
CHARLES F. BASS, New Hampshire    EDOLPHUS TOWNS, New York
JOSEPH R. PITTS, Pennsylvania     SHERROD BROWN, Ohio
MARY BONO, California             BOBBY L. RUSH, Illinois
LEE TERRY, Nebraska               GENE GREEN, Texas
MIKE FERGUSON, New Jersey         TED STRICKLAND, Ohio
MIKE ROGERS, Michigan             DIANA DEGETTE, Colorado
C.L. "BUTCH" OTTER, Idaho         JIM DAVIS, Florida
SUE MYRICK, North Carolina        CHARLES A. GONZALEZ, Texas
TIM MURPHY, Pennsylvania          TAMMY BALDWIN, Wisconsin
MARSHA BLACKBURN, Tennessee       JOHN D. DINGELL, Michigan
JOE BARTON, Texas                   (EX OFFICIO)                    
  (EX OFFICIO)                    


                            CONTENTS


                                                                       Page
Testimony of:

     Majoras, Hon. Deborah Platt, Chairman, Federal Trade Commission	16
     Marzulla, Nancie G., Partner, Marzulla & Marzulla, on behalf of 
          The Coalition for Auto Repair Equity	                        34
     Stanton, Michael J., Vice President, Government and 
          International Affairs, The Alliance of Automobile 
          Manufacturers	                                                43
     Lowe, Aaron, Vice President, Government Affairs, Automotive 
          Aftermarket Industry Association	                        48
     Gorman, Charles G., Chairman, National Automotive Task Force	57
Additional material submitted for the record:
     Lowe, Aaron, Vice President Government Affairs, Automotive 
          Aftermarket Industry Association, response for the record	77
     Stanton, Michael J., Vice President, Government and 
          International Affairs, The Alliance of Automobile 
          Manufacturers, response for the record	                79
     Majoras, Hon. Deborah Platt, Chairman, Federal Trade Commission, 
          submission for the record	                                80
     Shapiro, Gary, President and CEO, Consumer Electronics  
          Association, submission for the record	                82
     Kelly, Paul T., Senior Vice President, Federal and State 
          Government Affairs, Retail Industry Leaders Association, 
          submission for the record	                                83


                       H.R. 2048, THE MOTOR VEHICLE 
                              OWNERS' RIGHT TO 
                             REPAIR ACT OF 2005


                         WEDNESDAY, MAY 17, 2006

                         HOUSE OF REPRESENTATIVES,
                     COMMITTEE ON ENERGY AND COMMERCE,
                      SUBCOMMITTEE ON COMMERCE, TRADE, 
                           AND CONSUMER PROTECTION,
                                                             Washington, DC.


        The subcommittee met, pursuant to notice, at 10:08 a.m., in Room 
2123 of the Rayburn House Office Building, Hon. Cliff Stearns 
(chairman) presiding.
	Members present:  Representatives Upton, Radanovich, Bass, Terry, 
Rogers, Otter, Murphy, Blackburn, Schakowsky, Green, Strickland, 
Gonzalez, Baldwin, Dingell (ex officio).
	Staff present:  David Cavicke, General Counsel; Chris Leahy, Policy 
Coordinator; Brian McCullough, Professional Staff Member; Will Carty, 
Professional Staff Member; Billy Harvard, Legislative Clerk; Jonathan 
Cordone, Minority Counsel; Jonathan Brater, Minority Staff Assistant; 
and Chris Treanor, Minority Staff Assistant.
MR. STEARNS.  Good morning, everybody.
	The subcommittee will come to order.
	Today's hearing is the third time in the last 2 years that my 
subcommittee has addressed the issue of a consumer's "right to repair" 
their own vehicles.  That fact is indicative of how much all of us would 
like to see a mutually-agreeable, and preferably, a non-legislative 
solution to this issue.  We wanted to provide time for this progress.  
Unfortunately, the time for a deal has come and gone, and we are now 
scheduled to have a markup of Chairman Barton's bill H.R. 2048, the 
"Motor Vehicles Right to Repair Act of 2005" next week.
	My colleagues, according to the National Highway Traffic Safety 
Administration, NHTSA, out of the approximately 250 million vehicles 
in the United States, about 75 percent are serviced and repaired by 
independent mechanics from the "mom and pops" to the large 
franchisees like Midas and Jiffy Lube.  It is a market in which Americans 
alone spend close to $40 billion a year in repair and service of their 
vehicles.  When car manufacturers' warranties run out, usually in 5 years 
or less, American consumers overwhelmingly choose independent shops 
for the car repair they need.  Likewise, American consumers choose 
many of the aftermarket parts, many of which are supplied to 
independent garages to replace worn OEM or original equipment 
components.  All of this choice and the competition benefits the 
American consumer.
	The issues of information and access addressed in Chairman 
Barton's bill seem to appear most frequently when working on and 
repairing newer, more advanced vehicles, some more computerized than 
the Space Shuttle.  It is clear to me, after learning more about the 
sophistication of these systems and the technicians that service them, that 
the old shade tree mechanic is now more akin to a rocket scientist than 
Mr. Good Wrench.  And whether it is installing new brake pads, 
upgrading flash memory, or tuning our favorite motorcycle to get that 
extra 40 horsepower, new vehicles require new, expensive tools and 
expertise, not the socket wrench, grease gun, and the dog-eared Chilton's 
book that your father used to unleash on his clunker on the weekends.  
As more and more government regulation makes emission standards 
more stringent, safety systems like airbags and anti-lock breaks more 
robust, and security systems more intimidating and vault-like, cars are 
becoming more like supercomputers on wheels than the old-fashioned 
rides that many of us fondly remember.
	My colleagues, the bottom line is that accurate information and the 
ability to access that information is a necessary capability for any 21st 
century mechanic who wants to assure that the annoying little "check 
engine" light stops glowing, whether it is triggered by a catastrophic 
transmission failure or a simple loose gas cap.  The legislation before us 
today is intended to get us closer to that goal: first, by making sure that 
the information needed to service or repair the vehicle, that is the fault 
codes that trigger that annoying little light, is available and accurate; 
second, by making sure there are available, scan tools, that are needed to 
access the codes that route your mechanic to the source triggering that 
little light and that the codes are divined easily through the vehicles 
internal OBD system; and finally, by making sure that those codes can be 
cross-referenced accurately with information that is provided by the 
manufacturer on websites, CD-ROMs, and manual that is specific to the 
make and model of that car with the glowing "check engine" light so that 
a fix can be found.  Sounds simple, but as we have seen, the devil is in 
the details.  And believe me, trying to find common ground over the 
details has been more of a challenge than any of us expected it to be.
	To get some of those details today, I would like to have each of the 
witnesses, including Chairman Majoras, the FTC chairlady, to comment 
during the question-and-answer period on some of the more important 
and controversial elements of this bill, including: What should constitute 
"information" for the purposes of the bill?  Fault codes?  Engine 
mapping algorithms?  Training information?  Two, how should we 
interpret what is meant by "diagnostic tools and capabilities related to 
vehicle repair" in section 3 of the bill?  Does this mean scan tools?  What 
are the other "capabilities" referring to?  How would the FTC enforce 
this legislation?  What resources would be required to implement this bill 
as it is now written?  And finally, would the bill allow States to sue 
manufacturers under its current language?
	These are difficult questions, and we were very respectful of how 
difficult they are.
	I would like to thank our witnesses today, and especially Madame 
Chairman Majoras for coming, for taking up their valuable time to be 
here.  We appreciate that very much.
	I would like to also inform folks that Chairman Barton is a bit under 
the weather today, and he regrets that he can not be here for this opening 
period.  I assume he might be coming later.  We wish him well, and we 
hope he has a speedy recovery.
	And with that, I welcome the Ranking Member, Ms. Schakowsky.
	[The prepared statement of Hon. Cliff Stearns follows:]

PREPARED STATEMENT OF THE HON. CLIFF STEARNS, CHAIRMAN, SUBCOMMITTEE ON 
COMMERCE, TRADE, AND CONSUMER PROTECTION

     Good morning.  Today's hearing is the third time in the last two years 
that my Subcommittee has addressed the issue of a consumer's "right to 
repair" their own vehicles.  That fact is indicative of how much all of us 
would like to see a mutually-agreeable, and preferably, a non-legislative 
solution to this issue.  We wanted to provide time for progress.  
Unfortunately, the time for a deal has come and gone, and we are now 
scheduled to mark up Chairman Barton's bill, HR 2048, the "Motor Vehicle 
Owners' Right to Repair Act of 2005" next week.  
     According to the National Highway Traffic Safety Administration 
(NHTSA), out of the approximately 250 million vehicles in the United States, 
about 75% are serviced and repaired by independent mechanics -- from the "mom 
and pops" to the large franchises like Midas and Jiffy Lube.  It is a market 
in which Americans alone spend close to $40 billion a year on repair and 
service of their vehicles.  When car manufacturers' warranties run out -- 
usually in five years or less- American consumers overwhelmingly chose 
independent shops for the car repair needs.  Likewise, American consumers 
chose many of the aftermarket parts, many of which are supplied to 
independent garages, to replace worn "OEM" or original equipment components.  
All of this choice and competition benefits the American consumer.  
     The issues of information and access addressed in Chairman Barton's bill 
seem to appear most frequently when working on and repairing newer, more 
advanced vehicles -- some more computerized than the space shuttle.  It is 
clear to me after learning more about the sophistication of these systems 
and the technicians that service them that the old shade tree mechanic is 
now more akin to a rocket scientist than Mr. Good Wrench.  And whether it's installing new brake pads, upgrading flash memory, or tuning our 
favorite pocket rocket to get that extra 50 horsepower, new vehicles require 
new, expensive tools and expertise -- not the socket wrench, grease gun, and 
the dog-eared Chilton's that your father used to unleash on his clunker on 
the weekends. As more and more government regulation makes emissions standards 
more stringent, safety systems like airbags and anti-lock brakes more robust, 
and security systems more intimidating and vault-like, cars are becoming more 
like supercomputers on wheels than the old fashioned rides I fondly remember. 
     The bottom line is that accurate information and the ability to access 
that information is a necessary capability for any 21st Century mechanic who 
wants to ensure that the annoying little "check engine" light stops glowing -- 
whether it's triggered by a catastrophic transmission failure or a simple 
loose gas cap.   The legislation before us today is intended to get us closer 
to that goal.  First, by making sure that the information needed to service or 
repair the vehicle -- i.e. the fault codes that trigger that annoying little 
light -- is available and accurate.  Second, by making sure that there are 
available tools -- scan tools -- that are needed to access the codes that 
route your mechanic to the source triggering that little light and that the 
codes are divined easily from the vehicle's internal OBD system.  And finally, 
by making sure those codes can be cross referenced accurately with information 
provided by the manufacturer -- on web sites, in CD ROMs and manuals -- that 
is specific to the make and model of that car with the glowing "check engine" 
light so that a fix can be found.  Sounds simple, but as we have seen, the 
devil is in the details -- and believe me, trying to find common ground over 
the details has been more of a challenge than anyone ever expected. 
     To get to some of those details today, I would like to have each of our 
witnesses, including FTC Chairman Majoras, to comment during the Q and A on 
some of the more important and controversial elements of HR 2048, including:
     <bullet> 	What should constitute "information" for purposes of the 
bill?  Fault codes?  Engine mapping algorithms?  Training information? 
     <bullet> 	How should we interpret what is meant by "diagnostic tools 
and capabilities related to vehicle repair" in section 3 of the bill?  Does 
this mean scan tools?  What are the other "capabilities" referring to?
     <bullet> 	How would the FTC enforce this legislation?  What resources 
would be required to implement the bill as written?
     <bullet> 	Would the bill allow states to sue manufacturers under its 
current language?  

     I would like to thank our witnesses here today, especially FTC Chairman 
Majoras, for coming to offer their views.  I also would like to inform folks 
that Chairman Barton is a bit under the weather today and regrettably will not 
be able to attend this morning's hearing.  We wish him well and a speedy 
recovery.  Thank you.

	MS. SCHAKOWSKY.  Thank you, Mr. Chairman.
	Okay.  I appreciate you holding today's hearing on H.R. 2048, the 
Motor Vehicle Owners' right to Repair Act, of which I am one of the 102 
co-sponsors.
	I believe this bill addresses the current problem independent repair 
shops run into when they can not access the technical information they 
need to work on cars.  This bill would also restore consumers' right to 
choose where they want to take their business.
	We made a number of advances in car design and maintenance 
through the years.  Although we have a way to go, cars are safer, more 
environmentally sound, however, the technological advances have also 
created some complications for the corner garage and consumers.  
Having car problems is stressful.  Simple repairs are turning out to be not 
so simple after all.  Even getting a diagnosis may prove impossible, and 
many have found that they can't take their cars to the mechanics they 
trust and have been using for years merely because those mechanics 
can't get the service information they need or they can't get it in a timely 
fashion.  Highly skilled mechanics are being forced to send their business 
to dealers, because the auto manufacturers have the diagnosis and repair 
information on lockdown.
	According to AAA, consumers spend almost $200 billion annually to 
repair and maintain the 200 million cars on the road.  Seventy percent of 
consumers take their cars to independent repair shops once their warranty 
expires.  If we don't do something to ensure that the diagnosis and repair 
information sharing goes more smoothly than it has been, then we are 
severely limiting consumers' choice and undermining small businesses 
who already have the deck stacked against them.
	I believe it is important to protect the trade secrets and 
intellectual property of auto manufacturers.  The motor vehicle industry is 
the largest manufacturer in the country, and their innovations have helped 
fuel the economy.  However, I believe that information necessary to diagnose, 
service, and repair vehicles sold in the United States should be disclosed 
to car owners, repair shops, and the Federal Trade Commission.  I 
believe the balance between protecting the rights of manufacturers and 
the rights of the consumers can be found and that H.R. 2048 is on the 
right track towards striking that balance.
	The reason I decided to co-sponsor H.R. 2048 is because a couple of 
years ago, I met over coffee with a number of small repair shop owners 
in my district.  Those shop owners and mechanics shared their stories 
about how their business is being driven straight to the dealership 
because of roadblock after roadblock being thrown up by the auto 
industry.  Even though their shops are more convenient to use and often 
cheaper, they are losing their customers.
	While I was glad to hear that the stakeholders in H.R. 2048 tried to 
work out an agreement, it is my understanding that an impasse was 
reached, and that is why we are here today.  As is the case in many of 
these types of battles, consumers are the ones who pay for the industry 
disputes.
	Again, this is ultimately about the consumers for me.  Since the 
industries involved can't work out a solution, then I support moving H.R. 
2048 through the committee.  We need to ensure that the information 
provided to the car owners and independent repair shops is easily 
accessible, accurate, timely, and not priced out of reach.
	Again, I look forward to hearing our witnesses' take on the bill.
	Thank you very much.
	MR. STEARNS.  I thank the gentlelady.
	The gentleman from Michigan, Mr. Upton.
	MR. UPTON.  Thank you, Mr. Chairman.
	I believe in the old adage that all politics is local, so when this 
so-called "right to repair" issue first came up, I started asking folks around 
my district about it, the people that service my car and a number of 
different repair folks, as well as my constituents.  And not one person 
told me that they had a problem seeking the proper information to repair 
our autos.
	And I attended some hearings on it, read the materials from folks 
about it.  One thing really does stand out in my mind, and that is out of 
the 500 million non-warranty repairs last year, there were only 57 
requests for additional information about the National Automotive 
Service Task Force were made.  Fifty-seven out of five hundred million.  
It seems to me that a lot of those were resolved as well.  Now I have 
always stood for less government, not more, and I think that this bill, 
H.R. 2048, could be a bill that is looking for a problem.  If it ain't broke, 
don't fix it.  And it doesn't seem to be broken when you have only 57 
problems out of some 500 million of us that take our cars to get serviced.
	Since I have a little extra time, I might just also ask the chair 
about a piece of legislation that I helped author and pass on the House 
Floor with Mr. Markey, which was the Grand Theft Auto video game asking the 
FTC to investigate as to whether or not problems were there as it was 
labeled "M for mature" rather than "A for adult".  And because it was 
"M", it got into Best Buy and Target and a whole bunch of different 
places and became the number one video game in the country.  And we 
passed legislation, a resolution in the House, with nearly 400 votes 
asking the FTC to investigate as to why it got that label.  We are now 10 
months later from a vote on the House Floor, passed with wide bipartisan 
support, and we still have no answer  despite a number of phone calls 
that we have had thinking we would hear some word before Christmas 
and then Easter.  It is now Memorial Day.  We are soon to pass 1 year 
from when we passed this.  And I don't know how, for the life of me, if 
you can't investigate Grand Theft Auto, how you can possibly 
investigate something that has got 500 million complaints like this.
	And I yield back the balance of my time.
	[The prepared statement of Hon. Fred Upton follows:]

PREPARED STATEMENT OF THE HON. FRED UPTON, A REPRESENTATIVE IN CONGRESS FROM 
THE STATE OF MICHIGAN

     Thank you, Mr. Chairman.  
     I believe the old adage that "all politics is local," so when this so 
called "Right to Repair" issue first came up, I started asking around my 
district about it.  I talked to my service station repair folks, my auto 
dealers, and constituents.  And not one person told me that this is a big 
problem.
     Then I attended our hearings on it, read all the materials from folks 
about it. One things stands out in my mind -- out of 500 million non-warranty 
repairs last year -- only 57 requests for additional information from the 
National Automotive Service Task Force were made.  57 out of 500 MILLION!  
And it sounds to me like they were all resolved. 
     I have always stood for less government, not more and I think that HR 
2048 is a bill looking for a problem.
     I have the greatest respect for my Chairman, but I just have to say -- 
If aint broke, don't fix it!

	MR. STEARNS.  I thank the gentleman.
	The Ranking Member of the Full Committee, Mr. Dingell, is 
recognized.
	MR. DINGELL.  Mr. Chairman, thank you for recognizing me.
	Good morning to you and good morning to everyone here.
	I am pleased we are holding this hearing today on H.R. 2048, the 
Motor Vehicles Owners' Right to Repair Act of 2005.  It was reportedly 
introduced to help small repair shops.
	This appears to be a magnificent cure for a problem that does not 
exist.  And I find myself distressed that with all of the other important 
business we have at hand here in this committee and in the Congress that 
we would be fiddling around with something of this quality.
	Years ago, I was a senior member of the Small Business Committee, 
and I was very helpful to my friends in the small business community, 
generally, and very specifically, in the community of automobile repairs 
and people in the independent garage industry and so forth.  And we 
addressed their concerns and problems with considerable vigor.
	The legislation is a significant improvement over the version we 
considered last Congress, but the bill may impede competitiveness of 
American manufacturing at a precarious time for the automotive 
industry.  I am pleased, however, that the hearing is being held, because 
it will give us a chance to find out whether there is anything here 
justifying Congressional action.  All of the evidence which we have says 
the automobile industry has been working very hard to meet the concerns 
of the independent repairmen.
	Now it is quite clear that the issue is not as simple as some would 
make it.  The publicly stated objectives of the legislation are laudable.  
Consumers should be able to choose who repairs their automobiles.  I 
have always taken the position that this is a fundamental consumer right.  
It is not, however, the bill's stated objectives that I am concerned about.  
It is the means through which the legislation seeks to achieve its stated 
objectives and the consequences, whether intended or not, that give me 
pause.  It is possible to help consumers and to assist independent repair 
shops without jeopardizing the rights and the concerns of automobile 
manufacturers and their suppliers.
	Independent service stations across the Nation have joined with the 
world's automotive manufacturers to create the National Automobile 
Service Task Force.  This organization was designed as a non-legislative 
means in which the stated objectives of the bill are and can be achieved.
	Mr. Chairman, since the committee last examined this issue, the 
National Automobile Service Task Force, NASTF, has formalized its 
organization.  It has appointed a Board of Directors.  It has hired the 
Independent National Institute for Automobile Service Excellence to 
manage day-to-day operations.  I am told that the independent service 
stations are now receiving the information they need to repair all, I 
repeat, to repair all makes and models of motor vehicles.  And that in 
2005 there were only 86 requests for assistance made to NASTF.  These 
actions represent meaningful progress.  To the extent the effectiveness of 
this program remains in doubt, we should engage in suitable oversight in 
order to assure that the laws are faithfully being carried out by the 
regulatory agencies, but there is no need for additional legislation.
	I believe that legislative oversight is a useful tool, and we should 
certainly use that tool here.  But the use of that tool does not simply 
justify the movement forward towards legislation where none, in fact, is 
needed.
	I look forward to hearing from our witnesses, and I thank you, Mr. 
Chairman, for your kindness.  And I look forward to whatever work this 
hearing will disclose needs to be done by this committee.
	Thank you, Mr. Chairman.
	MR. STEARNS.  I thank the distinguished member.
	Mr. Rogers.
	MR. ROGERS.  Thank you, Mr. Chairman, and thanks for holding this 
hearing today.
	I want to echo the sentiments of the distinguished member from 
Michigan, Mr. Dingell, and Mr. Upton as well.
	I continue to have serious concerns with this issue and with this 
legislation.  First and foremost, I am concerned that H.R. 2048 is a 
solution in search of a problem.
	Consumers clearly have a right to have their cars serviced at the 
station of their choice.  In fact, today's witnesses lay out in detail the 
legal arguments supporting that right.  We are being told by one party 
that there is a serious market failure here and that consumers are being 
denied their legal rights.  If that is the case, Mr. Chairman, why have not 
the FTC nor the DOJ acted?  Why have not these same witnesses brought 
a lawsuit?  Or why are they not here today demanding FTC and DOJ 
action?  If what is happening today is already illegal, why do we need a 
new law?
	Perhaps it is because, as this committee has heard repeatedly, there is 
scant hard evidence that consumers and repair shops are actually unable 
to gain access to the information needed to repair automobiles.
	I have other major concerns as well, Mr. Chairman.
	I am also concerned that this legislation could jeopardize the 
intellectual property of automakers.  I am concerned that this change is 
how intellectual property rights are protected could have a ripple effect 
throughout the automotive industry, costing jobs in my home State of 
Michigan.
	I am also deeply concerned that the findings section of this 
legislation, coupled with the tough enforcement provisions of the FTC 
act, will serve as a boon to the trial bar.  It is wholly conceivable that 
this bill will open a floodgate of litigation against the automakers, parts 
suppliers, auto dealers, and even certain independent repair shops, 
depending on size and skill.
	Finally, this bill could threaten consumer safety.  H.R. 2048 does not 
provide adequate provisions to ensure that the security data is kept 
secure.  Modern technology has made cars much harder to steal and 
much easier to track down.  H.R. 2048 could well undo this progress.
	Again, Mr. Chairman, I again want to join my colleague from the 
great State of Michigan, Mr. Dingell, in expressing my concern for this 
bill, especially now.  And I certainly would urge that throughout this 
hearing we come to a quick conclusion that this is as far as this bill 
should go.
	And I yield back the remainder of my time.
	MR. STEARNS.  The gentlelady from Wisconsin, Ms. Baldwin.
	MS. BALDWIN.  Thank you, Mr. Chairman.
	I am pleased that you are holding this hearing today on the Right to 
Repair Act, and I am interested in learning from the various perspectives 
that are going to be represented here today, especially because I come to 
this issue from a slightly different perspective.
	Several years ago, I was contacted from JT Packard, a company in 
my district that maintains distributed energy supply systems.  Essentially, 
these are backup supply-generating systems that companies use in case 
of a power surge or a complete loss of power.  JT Packard came to me, 
because they used to perform routine maintenance on this equipment, 
that is until the equipment manufacturers installed encrypted software 
codes that only enabled the manufacturer to do the repair.  Needless to 
say, my concern for this company led me to understanding many of the 
arguments that have been made in support of Chairman Barton's 
legislation, and as a result, I have been a co-sponsor in this session and 
the last.
	As a co-sponsor, I have seen this legislation in different forms, and 
I have also seen the industry join together to work on this issue in a way 
that could possibly have beneficial results, removing the need for 
government intervention.  I was pleased to hear that the National 
Automobile Service Task Force voted to formally reorganize itself in 
March of this year, and I am hopeful that it will meet its mission and 
ensure that timely, accurate, and affordable diagnostic information, tools, 
and training are provided to independent repair facilities.
	As we review this issue today, we must recognize the proactive steps 
that the industry has taken.  At the same time, our top priority must 
always be the protection of consumers.  Gaining access to service 
information and diagnostic tools should not result in less consumer 
choice, higher prices, or longer waiting time.  And independent auto 
repair shop owners should not have to fear losing business because of 
hurdles that block access to vital information.
	I look forward to this hearing on how we can work together through 
this legislation or by other means to address the concerns of 
manufacturers, service providers, and most importantly, consumers.
	Thank you, Mr. Chairman.  I yield back the balance of my time.
	MR. STEARNS.  Mr. Terry.  Mr. Terry waives.
	Mr. Gonzalez.
	MR. GONZALEZ.  Thank you very much, Mr. Chairman.
	I am going to be brief.
	First, with some apologies.  I want to assure the witnesses that I 
will be reading your written statements.  I have to leave to attend an 11 
o'clock meeting where I need to make a presentation.
	Within the past 2 years, I met with who I refer to as my repair and 
parts people in San Antonio.  But even within that group or association, 
there wasn't really total agreement about the need for legislation.  I had 
some that were asking what would have been my position, what is going 
to happen and such, but I had others that said, "We simply have not had 
any problems.  We were able to work with manufacturers and others to 
the extent that we can provide the necessary repairs with the necessary 
technological information that is needed."  To this day, those same 
individuals at that meeting, and I admire and respect all of them, because 
what I told them is, "Give me concrete examples of what is going on in 
the Congressional district regarding the need for this information."  I 
have yet to receive any of that information.  The last hearing we had, I 
again simply indicated, "Give me concrete examples."  So I am hoping in 
today's testimony we are going to have more information forthcoming 
that clearly demonstrates that we do have this problem out there that 
needs to be addressed by federal legislation, which would be appropriate.
	Anticipatory prospective legislation seldom is very good, because we 
really don't do well looking into the crystal ball and figuring out how we 
are going to fix a situation that hasn't already reached some sort of 
critical mass.  Has it, at this point?
	Again, I look forward to the testimony.  I regret that I won't remain 
through the whole hearing, but I guarantee you that I will be reading the 
testimony with a great interest.
	And I yield back.
	Thank you, Mr. Chairman.
	MR. STEARNS.  I thank my colleague.
	And by unanimous consent, we will have 5 days available for all 
members to put their opening statement as part of the record.
	[Additional statements submitted for the record follow:]

PREPARED STATEMENT OF THE HON. JOE BARTON, CHAIRMAN, COMMITTEE ON ENERGY 
AND COMMERCE

     Mr. Chairman, thank you for holding this important hearing today on H.R. 
2048, and the complex issue of information availability and access to auto 
repair information. 
     Since introducing this legislation, I have been openly working with all 
parties to facilitate an agreement that would negate the need for legislation.  
As I have said many times in the past, my hope has been that the industry 
would work out that agreement.  However, now that these negotiations have not 
produced a consensus, this Committee is prepared to move the bill.  Today, I 
am glad we have a chance to listen to suggestions that may improve the bill, 
as we move toward marking it up in the near future.
     Let me start by saying that I have a wonderful General Motors plant in 
my district, in Arlington, TX.  And, like most Members, I have local dealers 
that I hear from occasionally.  So this is not a constituency whose views I 
have failed to hear on the underlying legislation.  I want to be clear, I am 
not out to inhibit the technological advances achieved by our automakers or 
to give away their trade secrets.  The bill is NOT about gaining proprietary 
information, as some suggest.  What it IS about is consumers' choice in auto 
repair.  They should be able to choose where they have their vehicle repaired, 
and whether they choose aftermarket replacement parts or Original Equipment 
Manufacturer (OEM) parts.
     Computer-controlled technology is an integral part of modern automobile 
functions and has necessitated new considerations for effective service, 
repair, and maintenance.  Nowadays, car repair usually involves interaction 
with a car's on-board diagnostic (OBD) computer using specially designed 
tools.  These tools are used to identify an error code, and that code is then 
linked to information providing the specifics of the problem and the 
procedures for correcting it.
     While current regulations and industry agreements have tried to insure 
that all the information necessary to make use of the OBD system is provided 
to the independent repair shops, there are still holes in the system.  
Further, there is no agreement among the parties about how to resolve 
disputes.  What is the recourse for independent repairers and consumers-or 
the penalty for the automaker-if the information and tools are not made 
available to them?  Also, there is still a disagreement over the governance 
structure of the National Automobile Service Task Force (NASTF).  Because 
this process seems to have reached an impasse, I believe H.R. 2048 is 
necessary.
     H.R. 2048 is a very straightforward bill.  It directs the FTC to write 
rules within one year requiring auto manufacturers to make certain necessary 
repair information available.  The same service and training information must 
be made available to all independent repair shops in the same way that it is 
given to franchised dealerships.  Furthermore, the same diagnostic tools and 
capabilities that are made available to franchised dealerships must be made 
available to independent repair shops as well.  The FTC would treat a 
failure to do so as an unfair and deceptive trade practice.
     Importantly, H.R. 2048 makes sure that the bill should not be considered 
to be a requirement to disclose trade secrets, nor should it be interpreted 
to require the public disclosure of any information related to the design and
manufacture of motor vehicle parts.  And finally, the FTC rulemaking is 
restricted from prescribing rules that would interfere with the authority of 
or conflict with any rules prescribed by the EPA related to emissions 
control systems.
     I appreciate the willingness of all the stakeholders to sit down and 
try to work this out, but given the apparent roadblock, it is time to move 
this bill.
     I want to welcome Chairman Majoras back to the Committee and thank her 
for offering the FTC's perspective today.  I appreciate all our witnesses' 
participation, and I look forward to hearing suggestions about how to 
perfect the legislation.
     Thanks again to you, Mr. Chairman, and I yield back the balance of my 
time.

PREPARED STATEMENT OF GENE GREEN, A REPRESENTATIVE IN CONGRESS FROM THE STATE 
OF TEXAS

     I'd like to thank the Chairman and Ranking Member for holding these 
hearings today.  I think this issue is an important consumer issue and has 
challenged parties on both sides of this issue.
     I am disappointed that both sides could not reach an agreement that 
would have prevented moving forward with this legislation.  
     Before we held a hearing on this bill over a year ago, I met with 20 
repair shop owners from my district asking me about this legislation and 
what Congress could do.  
     Since then, I have received a list of almost 100 shops in my district 
voicing concerns over having access to information that would enable to 
repair today's high-tech automobiles.
     Like most large cities in the United States, Houston has as many 
independently owned repair shops as we do shade-tree mechanics.  However, 
with the level of technology used in today's automobiles, the shade tree 
mechanic is often led to their nearest repair center which is most often an 
independent shop.  
     When I got my first car, I was able to buy a Hanes or Chilton manual 
that showed how the car could be repaired.  
     These manuals include wiring diagrams, clock times to adjust the timing, 
and torque specifications for everything from the lug nuts on the wheels to 
the bolts securing the engine block.
     Things have changed and computer systems in newer vehicles control 
everything from Air bag deployment to emissions.  
     I'm supporting this bill because I'm concerned about the consumer.  If 
my constituents own a newer model car or truck, they should be able to take 
it to their local mechanic to be repaired.  High tech advances shouldn't 
make repairing your vehicle at a neighborhood shop out of reach. 
     The goal of this legislation is simple: auto makers should be able to 
supply information to local repair shops so those shops can repair a 
vehicle.  However, auto makers should also be fairly compensated for this 
information due to their investment in developing and engineering the cars 
and trucks in the first place.
     Beyond that, there is concern I have regarding trade secrets and 
intellectual property.  I believe being able to repair your automobile at 
the shop of your choice is important.  
     However, I do not want to see automakers and engineers here releasing 
information to people in China to reverse engineer high technology in our 
automobiles.
     Another concern I have is with the National Automotive Service Task 
Force.  The 86 complaints filed in the last 18 months does not seem to 
reflect the urgency of the problem.  
     I want to make sure that consumers can get their cars repaired, 
independent shops have access to what they need to make the repairs, and 
the manufacturers can protect their trade secrets and intellectual property.
     Thank you Mr. Chairman and I yield the balance of my time.  

PREPARED STATEMENT OF TED STRICKLAND, A REPRESENTATIVE IN CONGRESS FROM THE 
STATE OF OHIO

     Good morning.  Thank you Mr. Chairman, and thank you for holding this 
hearing.  I believe this issue is important to all of our constituents 
because it will allow car owners greater freedom to choose auto repair shops.  
This is important for driving down prices for car repairs, which, as we all 
know, can be extremely high.  
     In my own district, public transportation options are few and far 
between.  Most of my constituents depend on their cars for all of their 
transportation needs.  Affordable car maintenance is vital for ensuring that 
my constituents are able to get to work and bring their children to school.  
I believe H.R. 2048 will help to make car repairs more affordable by allowing 
independent auto repair shops to compete effectively with dealerships for 
car repair and maintenance jobs.  Currently, independent mechanics may 
not have access to the necessary software updates that manufacturers share 
with dealerships.  In fact, according to some studies, more than 50% of 
independent mechanics have had to turn a customer away because they simply 
couldn't access the information they needed to fix the customer's car.  
Therefore, car owners are often forced to choose the dealership for repairs, 
despite the fact that dealerships can be more expensive and less 
convenient than local independent mechanics.  
     In addition to driving down prices for auto repair, I believe this bill 
has the potential to increase accessibility of high-quality car maintenance 
in rural areas and small towns.  In Ohio's Sixth District, if a family car 
breaks down, many of my constituents currently have to worry not only about 
how to pay for the repair, but also how to get their car to a dealership or 
mechanic that can repair it.  For example, a car owner living in Gallipolis, 
Ohio, may have to travel over 40 miles, to Athens, Ohio, to reach their 
closest dealership.  For a family relying on a single car, this could mean 
missed school and work, not to mention the expense and inconvenience of the 
travel.  
     I understand that many of my colleagues have legitimate concerns about 
the need to protect intellectual property.  We certainly do not want to force 
any car manufacturer to reveal their private manufacturing process or trade 
secrets.  It is my understanding that the bill clarifies that auto 
manufacturers would be required to provide only the information currently 
provided to car dealerships -- no more and no less.  The bill then, is 
actually consistent with current Clean Air Act emissions requirements, and 
should not present a new threat to intellectual property protection.  
However, I know this issue continues to cause concern for the auto 
manufacturers and for many of my colleagues, and I hope that some of today's 
witnesses will further address this issue. 
     Ultimately, I am hopeful that this hearing can shed some new light on 
the issue, and allow all parties to come to an agreeable conclusion.  This 
can be accomplished more quickly without legislation; however, should 
legislation become necessary, I believe H.R. 2048 is a good, bipartisan bill. 
I am a cosponsor of H.R. 2048, and I cosponsored similar legislation in the 
108th Congress.  I look forward to hearing today's testimony.

	MR. STEARNS.  With that, we will move to our first panel: the 
honorable Deborah Platt Majoras, who is Chairwoman of the Federal 
Trade Commission.  I welcome her.  And thank you for your opening 
statement.
	MS. MAJORAS.  All right.  Mr. Chairman--
	MR. STEARNS.  Move it a little closer to you, too, if you don't mind.
	MS. MAJORAS.  All right.  I would be happy to.  Thank you.
	MR. STEARNS.  There you go.

STATEMENT OF HONORABLE DEBORAH PLATT MAJORAS, 
CHAIRMAN, FEDERAL TRADE COMMISSION

	MS. MAJORAS.  Mr. Chairman, Madame Ranking Member, I am 
Deborah Majoras, Chairman of the Federal Trade Commission.  I 
appreciate the opportunity to appear before you today to discuss H.R. 
2048.  The views expressed in the written testimony represent the views 
of the entire Commission.  My oral testimony and responses to your 
questions reflect my own views and may, but do not necessarily, reflect 
those of the Commission or any other individual Commissioner.
	Over the past couple of decades, as this subcommittee has 
recognized, automobile manufacturers have dramatically improved the 
cars we drive.  Today's cars are safer, more reliable, and offer features 
unheard of even 20 years ago.  These improvements have precipitated 
changes in the automotive repair aftermarket where sophisticated 
computer programs are now as essential as socket wrenches and 
screwdrivers.
	Repair shops, therefore, increasingly need access to computer codes 
and high-tech codes to conduct their businesses, and they are concerned 
that they are not getting complete and timely access.
	Automobile repair is important to American consumers.  U.S. 
consumers spend billions of dollars each year to repair and maintain the 
millions of cars currently on the road.  We are a Nation on the go.  And 
certainly I understand any frustration American consumers may feel if 
they can not have their cars repaired in a convenient and timely manner.
	H.R. 2048 would require automobile manufacturers to promptly 
disclose to a vehicle owner or a repair facility of the owner's choice the 
information necessary to diagnose, service, or repair the consumer's car.  
In particular, it requires manufactures to provide equal access to service 
and training information to both dealers and independent shops on a non-
discriminatory basis, including activation of controls and diagnostic tools 
and capabilities.  It also requires manufacturers to provide service and 
training information and manufacture diagnostic capabilities to 
companies who make tools to compete with the manufacturers.  Auto 
manufacturers would be exempt from providing information that 
constitutes a trade secret unless the information has already been 
provided to a dealer or another repair facility.  The proposed legislation 
requires the Commission to promulgate the regulations, to prescribe the 
manner in which the information would be provided.  This is a much-
improved version of the bill, and we appreciate Chairman Barton's and 
Chairman Stearns' willingness to consider our concerns in drafting the 
current legislation.
	Despite these improvements, the Commission continues to believe 
that a voluntary, self-regulatory approach is the best solution to the issues 
that have been raised in this area.  Self-regulation could address 
disclosure issues with greater speed and more flexibility than can 
government regulation.
	Despite the prodding and considerable patience of Members of 
Congress, the automobile manufacturers and aftermarket repair shops 
have, to date, been unable to work together to resolve the matter.  And I 
share the frustration of many members with the parties' failure to reach a 
final agreement.
	In August and September of last year, at the direction of Chairman 
Barton and Senator Graham, representatives of the automotive 
manufacturers and independent repair shops met with the Better Business 
Bureau mediator and Commission staff for more than 60 hours to try to 
reach a voluntary agreement.  Some progress was made, including 
agreement that the creation of an independent National Automotive 
Service Task Force board was the first step to resolving the remaining 
issues.  Since last summer, the parties' failure to build on that success is 
troubling.  My understanding is that the CARE Coalition and the Auto 
Alliance have not had a single meeting since the conclusion of those 
talks.
	I believe it is in the interest of American consumers that both sides 
take responsibility and sit down in earnest to hammer out a solution.  
They claim they care most about consumers.  If that is correct, they will 
work harder at this and not continue to look to the government to solve 
what can be individual disputes in the marketplace on a going-forward 
basis.  I will grant that that is not easy, because these issues are more 
complicated than they appear, but that may be an even greater reason 
which underscores why it would be so difficult for one agency with no 
experts in auto repair to solve these individual issues.
	If, though, you determine that legislation is appropriate, we believe 
that the parties' points of agreement should receive serious consideration.  
For example, in their discussions, both sides agreed on many core issues, 
such as the strengthening and funding of the NASTF process, setting up 
dispute resolution procedures, and providing some remedies for a third-
party dispute resolution program.  In particular, the parties reached a 
general agreement to use the NASTF organization to arbitrate disputes 
over access to repair information and tools and to mete out consequences 
for a failure to meet the standards.  These points of agreement could 
provide the basis for a solution.
	One final point, I just would like to address Congressman Upton's 
point.  We have opened the Grand Theft Auto investigation as a law 
enforcement investigation, not just simply as a Congressional inquiry.  I 
know that he has not been happy that investigation has not been 
completed.  I am not particularly pleased about it, but unfortunately, I am 
not at liberty to tell you what has happened along the way, because it is a 
law enforcement investigation.  I can only assure you that we have been 
working very hard on the investigation, and I do think that soon we will 
be able to publicly explain what we found and where we are.
	I thank the subcommittee for giving the FTC an opportunity to 
provide its input today.  We look forward to continuing to work with this 
subcommittee and with all of the stakeholders.
	And obviously, I am happy to answer your questions.
	Thank you very much.
	[The prepared statement of Hon. Deborah Platt Majoras follows:]

PREPARED STATEMENT OF THE HON. DEBORAH PLATT MAJORAS, CHAIRMAN, FEDERAL 
TRADE COMMISSION

     Mr. Chairman, Ranking Member Schakowsky, and members of the Subcommittee, 
I am Deborah Platt Majoras, Chairman of the Federal Trade Commission ("FTC" or 
"Commission").   I appreciate this opportunity to discuss H.R. 2048, the 
"Motor Vehicle Owners' Right to Repair Act." 
     The Federal Trade Commission's mission is to enhance consumer welfare and 
protect competition in broad sectors of the economy.  The FTC enforces the 
Federal Trade Commission Act  and other laws that prohibit business practices 
that are anticompetitive, deceptive, or unfair to consumers, and seeks to do 
so without impeding legitimate business activity.  The agency has 
responsibilities under more than fifty federal laws, including the Controlling 
the Assault of Non-Solicited Pornography and Marketing Act,  the Fairness to 
Contact Lens Consumers Act,  and the Fair and Accurate Credit Transactions 
Act.   The FTC also promotes informed consumer choice and public 
understanding of the competitive process because an informed consumer is an 
empowered consumer.
     The FTC is currently hard at work reviewing its Appliance Labeling Rule 
pursuant to Section 137 of the Energy Policy Act of 2005  and is on track to 
meet rigorous Congressional deadlines.
     The Commission's work is critical to protect and strengthen free and 
fair markets in the United States.  Among the Commission's accomplishments 
are the implementation and enforcement of the National Do-Not-Call Registry, 
the protection of the availability of lower-cost prescription drugs, the 
halting of deceptive or abusive lending practices, the elimination of unfair 
or deceptive practices in e-commerce, and the challenge of mergers and 
acquisitions that likely would harm competition.
     Auto repair is an important service for U.S. consumers.  U.S. consumers 
spend billions of dollars each year to repair and maintain the more than two 
hundred million cars currently on the road.   Consumers thus have a 
significant interest in automobile repair and maintenance markets that 
operate effectively and efficiently, consistent with safety and other 
quality standards. 
     For some time, Chairmen Barton and Stearns, and this Subcommittee have 
considered ways to ensure that independent car repair facilities and vehicle 
owners have access to information and tools needed to diagnose, service, or 
repair vehicles.  
     As the Commission has previously noted, such access is not as easy or 
inexpensive as it once was.  Auto manufacturers have adopted sophisticated 
technology to improve the performance, comfort, safety, and security of their 
products.  This technology requires expensive computerized tools to diagnose 
and repair problems, as well as knowledge of particular software access or 
computer codes.  Independent repair shops claim that it can be difficult to 
acquire all of the equipment it may need to repair all makes of cars, or to 
easily access all of the information required to make timely repairs.  
Generally, the marketplace will provide strong incentives for automobile 
manufacturers to ensure that their customers have an appropriate range of 
repair options because the manufacturers depend on repeat purchases of their 
products.  With the increasing sophistication of automobiles, however, 
independent repair shops have been concerned about continued access to the 
high tech information and tools they need to repair motor vehicles. 

H.R. 2048 
     To address these concerns, last May, Chairman Barton and Representatives 
Towns, and Issa introduced H.R. 2048.  This legislation would require 
automobile manufacturers to promptly disclose to a vehicle owner, or to a 
repair facility of an owner's choice, the information "necessary to diagnose, 
service, or repair" the owner's car.  In particular, it requires manufacturers 
to provide equal access to service and training information to both dealers 
and independent shops on a non-discriminatory basis.  The information would 
include activation of controls, and diagnostic tools and capabilities.  Auto 
manufacturers would be exempt from providing any information that constitutes 
a trade secret unless that information already has been provided to 
franchised dealerships or other repair facilities.  The proposed legislation 
also would require the Commission to promulgate regulations to prescribe the 
manner in which the information would be provided.
     A violation of this regulation would constitute an unfair or deceptive 
act or practice in violation of Section 5 of the FTC Act  and would be treated 
as a violation of a rule defining an unfair or deceptive act or practice.  
Violations would, therefore, be subject to both civil penalties and injunctive 
relief.
     This bill is the successor to a bill from the prior Congress, H.R. 2735.  
The Commission appreciates the willingness of Chairmen Barton and Stearns, and 
the Subcommittee to consider the concerns of the Commission and its staff in 
drafting the new legislation.   Among other things, H.R. 2735 required the 
Commission to review massive amounts of highly technical information on an 
ongoing basis to determine whether particular information is entitled to trade 
secret protection.  H.R. 2048 has removed this potentially weighty burden. 
Other important revisions include eliminating the broad requirement to 
disclose information of any kind used for diagnosis, repair, or other 
services in favor of ensuring equal access to information on an equal basis 
by both dealers and independent shops; and authorizing greater flexibility 
in the manner in which information is provided, allowing disclosures to 
conform to legitimate industry needs and practices.
     To date, a comprehensive voluntary solution to the issue of 
information provision has proven elusive.  The Commission is disappointed 
that, despite efforts to bring those on each side of this issue together to 
reach a mutually agreeable solution, the parties have thus far been 
unwilling to make the compromises necessary to resolve the matter.  Last 
year, Chairman Barton and Senator Graham urged representatives of the 
independent auto repair facilities and automotive manufacturers to try to 
reach a voluntary agreement for the provision of service information.   
In August and September 2005, manufacturer and aftermarket representatives 
met for more than sixty hours of discussions facilitated by the Council of 
Better Business Bureaus ("CBBB") and attended by Commission staff.  
In these discussions, the parties looked to the information-sharing 
structure created by the National Automotive Service Task Force ("NASTF")  
to provide information, training, and tools to automotive service 
professionals.   In the course of their discussions at the CBBB, both sides 
looked to improve the NASTF structure to streamline the process and 
provide the necessary support to technicians who face problems obtaining 
information.
     Although the parties' negotiations resulted in some significant areas 
of agreement, the parties failed to develop fully a mutually agreeable 
solution.  The parties continued to have difficulties in reaching agreement 
regarding a number of issues, including (1) certain aspects of the 
information that the automobile manufacturers would be required to 
provide independent auto repair facilities; (2) the manner of restructuring 
and governing NASTF to ensure that all interests were represented in a 
balanced matter; (3) the mechanism for resolving disputes regarding tools, 
including tool costs; (4) the calculation of monetary remedies for aggrieved 
parties; (5) the penalties, if any, to be assessed against a non-compliant 
manufacturer; and (6) a means of providing key codes to the aftermarket 
without compromising vehicle security.
     Last November, the Commission testified before this Subcommittee to 
discuss the efforts of the manufacturers and aftermarket representatives to 
reach an accord.  We expressed our disappointment that the parties were 
unable to come to a final agreement and our hope that the parties could 
eventually reach consensus.
     One key area of agreement between the parties was the creation of an 
independent NASTF board to oversee the information sharing process.  
Significantly, both manufacturers and aftermarket representatives agreed 
that if they could concur on board membership, that board could resolve 
other areas of dispute.  The parties, however, did not then agree on the 
composition of the board.
     We continue to believe that the best approach to resolve particular 
disputes between the parties, including the determination of the composition 
of any governing board, should be decided and implemented by industry 
participants rather than the government.  Such an approach is preferable 
because the parties' full faith in the board is imperative for it to 
accomplish the goals of a self-regulatory process, and that full faith 
would best be obtained by consensus in determining its composition.
     While the parties still have not succeeded in resolving their disputes 
and developing a comprehensive solution to the issue, the Commission staff 
has been informed that NASTF recently elected a Board of Directors with the 
mission of providing automotive service information, training, and diagnostic 
tools and equipment to automobile repairers.  NASTF's Board includes 
representatives from the Equipment and Tool Institute, the Automotive 
Service Association, the Alliance of Automobile Manufacturers, and the 
Associated Locksmiths of America.  NASTF also has secured funding for its 
program.  Although this is a unilateral action, it may provide a first step 
toward a mutually acceptable agreement.
     We under stand that any ultimate solution that does not involve the 
consent and participation of all the parties is not a perfect solution.  
We, therefore, continue to encourage the parties to initiate and take the 
lead on further discussions to try to reach a mutually satisfactory 
resolution that reflects the parties' consensus.  Commission staff 
would be willing to attend those discussions if the parties feel that our 
presence would aid them in reaching agreement.
     If Congress determines that legislation is appropriate, the Commission 
believes that elements on which the parties were able to reach agreement 
should receive consideration throughout the ongoing legislative process.  
For example, in their discussions, both sides agreed on several core 
issues, such as strengthening and funding of the NASTF process, many 
remedies for a third party dispute resolution program, and dispute resolution 
procedures.  In particular, the parties reached a general agreement to use 
the NASTF organization to arbitrate disputes over access to repair 
information and tools, and mete out consequences for the failure to meet 
the standards for providing information.  Such an area of agreement could 
provide the basis for a solution to this issue.
     Mr. Chairman, members of the Subcommittee, thank you for providing 
the Federal Trade Commission the opportunity to appear before this 
Subcommittee.  We look forward to continuing to work with you.

	MR. STEARNS.  Thank you.
	I will start with my first questions.
	Did I hear you say that should the committee mark this up, and if, 
somehow, this bill passed, that you really don't have the personnel and 
the people right now to enforce this bill, as it is written?  Is that what you 
are saying?  You don't have the specialized people.  So your agency, as it 
presently exists today, could it enforce this bill?
	MS. MAJORAS.  Well, I don't want to go so far as to say we could not 
enforce the bill.
	MR. STEARNS.  But you sort of alluded to the fact you don't have the 
people with this esoteric knowledge of dealing with things like this.
	MS. MAJORAS.  Sure.  For example, Mr. Chairman, we are down the 
road.  We have promulgated some regulations, and we have now 
received a complaint that the manufacturers have not complied with the 
regulations in the statute, and there is a he said/she said going on.  And 
we have to sort out now who is right in this dispute.  And if the dispute 
could be, you know, "We needed this tool to fix this and we don't have 
it," we certainly would have to hire experts to help us if those are the 
types of disputes that end up being brought before us, because it is true 
that this has become quite complicated.  That is why we are sitting here.  
And for us to find out who is right or wrong based on what tools and 
information are necessary to fix a car, no, we don't know how to fix a 
car.
	MR. STEARNS.  So it would be fair to say today you don't have the 
resources at the Federal Trade Commission to implement this bill?  That 
would be a fair statement?
	MS. MAJORAS.  If individual complaints actually do come to us that 
we have to resolve, there could be instances in which we would not, yes.
	MR. STEARNS.  I am interpreting that as a yes.  Okay.
	Secondly, if you do not now have the resources to effectively handle 
this bill, are you getting many complaints today?  You mentioned one 
right now.  Have you gotten any complaints in the last year?
	MS. MAJORAS.  We have looked, and we have about 500 complaints 
that relate to auto repair, but in looking at--
	MR. STEARNS.  Is that over a year, 500?
	MS. MAJORAS.  Since January, but none of them were on this issue.
	MR. STEARNS.  Okay.  Okay.  So you have had 500 complaints since 
January of this year.  None of them have dealt with owners' right to 
repair, which is the subject of this bill?
	MS. MAJORAS.  Correct.
	MR. STEARNS.  And how many complaints did you get that are 
pertinent, applicable to the owners' right to repair of those 500?  How 
many would you count?
	MS. MAJORAS.  None that we know of.
	MR. STEARNS.  Okay.  Would it be fair to say that right now the 
Federal Trade Commission has had no complaints filed in this area of 
this discussion this morning?
	MS. MAJORAS.  Well, since January, to be sure, I can't tell you in 
years past that this has not been--as you know, this wasn't an issue that 
we brought to the committee because we were getting a lot of consumer 
complaints, so I can't tell you there has never been one before this year.
	MR. STEARNS.  No.  But out of the 500, how many can you identify 
as complaints that would be applicable to this hearing?
	MS. MAJORAS.  I can't identify any.
	MR. STEARNS.  Any?  None?
	MS. MAJORAS.  Correct.
	MR. STEARNS.  Well, I think there are two statements you have said 
that are pretty significant here this morning, one, that you don't presently 
have the resources at the Federal Trade Commission to handle this, 
because it is quite esoteric when you get into, for example, engine 
mapping, algorithms, fault codes, training information, something like 
that.  One of my questions is what constitutes information for purposes 
of this bill.  I mean, I have a little trouble saying to you, "Can you 
answer these questions?" because they are quite esoteric, but you have 
indicated that, one, you don't have the resources right now, and two, you 
have received no complaints, that you are aware of, as chairwoman of the 
Federal Trade Commission.
	MS. MAJORAS.  Correct.
	MR. STEARNS.  Well, another one is how should we interpret what is 
meant by "diagnostic tools and capabilities related to vehicle repair" in 
section 3 of the bill?  Does this mean scan tools?  What are the "other 
capabilities" referring to?  That is quite an esoteric question.  I am not 
sure you could answer it.  I am not sure that anybody up here could 
answer it.  And would it be fair to say that you are not in a position to 
answer that question?
	MS. MAJORAS.  I cannot answer that question today.
	MR. STEARNS.  No, I understand.  I understand.
	How about this question?  Would the bill allow States to sue 
manufacturers under its current language?
	MS. MAJORAS.  I don't believe it allows the States.
	MR. STEARNS.  Okay.
	MS. MAJORAS.  No.
	MR. STEARNS.  Well, I have a series of four questions, and, you 
know, basically the only question you can really answer is you don't 
have the ability to enforce this legislation, you don't have the resources, 
and two, you have had no complaints.
	Let me ask you this, and maybe you could be more candid.  Do you 
think the committee should revise this bill in any way?  Are there 
suggestions from your department to reflect anything that we should do 
to change this bill?
	MS. MAJORAS.  Well, if you move forward with the bill, I would 
think about taking the points on which there have been agreement among 
the interested parties and consider how, perhaps, they could be 
incorporated, because we have always thought that these are the folks 
with the expertise.  These are the folks who know what is going on here.  
What they could decide mutually would be a good step forward.  And so 
if we go forward with legislation, that would be one thing that I would 
consider.
	MR. STEARNS.  I am going to ask you my last question, and it is also 
a little difficult for you to answer, because it is making a personal 
observation and opinion here.  Does the legislation expose manufacturers 
to disclosure of proprietary secrets or technology?  Is the savings clause 
for trade secrets sufficient to protect secrets?  Is that something you or 
someone on your staff could answer?  If you can't answer it this 
morning, you could provide a written reply to us.
	MS. MAJORAS.  Yes, we can provide a written reply.  I think--
	MR. STEARNS.  Because that is one of the key areas here, the idea of 
disclosure of proprietary secrets or technology is being argued about in 
this debate, and if you could give us, you know, what your opinion is, 
that would be helpful.
	MS. MAJORAS.  Sure, because there is a difference, of course, Mr. 
Chairman, between trade secrets and intellectual property.  And so there 
has been some question raised whether some of the tools provisions in 
this bill would require exposure of intellectual property.  So we would be 
happy to write an answer for you that explains that further.
	MR. STEARNS.  Okay.  My time has expired.
	The Ranking Member, Ms. Schakowsky.
	MS. SCHAKOWSKY.  Thank you very much.  I appreciate your being 
here.
	Let me just say that I think that if there is a real problem, that 
it is never sufficient to say, "Well, we don't have enough.  The reason for 
not doing it is because we don't have enough resources."  I mean, I think, 
then, that is a separate issue that we may have to deal with.  If you are 
saying that it is not enough of a problem and that there are other 
mechanisms to deal with it, I think that is a different issue.  And so, you 
know, which is it?
	MS. MAJORAS.  Well, in truth, we don't know.  We don't fully 
understand yet the scope of this problem.  We were brought into the 
debate when legislation was already underway, and when we have asked 
for more specifics on the scope of the problem, we haven't gotten many 
specifics.  So that is harder for me to say.  But it--
	MS. SCHAKOWSKY.  But weren't you part of some of the 
conversations about the--
	MS. MAJORAS.  Oh, surely we were.
	MS. SCHAKOWSKY.  Okay.
	MS. MAJORAS.  We were part of the mediation process.
	MS. SCHAKOWSKY.  Right.
	MS. MAJORAS.  Absolutely.  We were willing to take on faith from 
this subcommittee.  Of course, we will help with this.  We will help this.  
The subcommittee believes it is a problem, and so we were involved.  
My point is not so much, "Gosh, you know, I just don't have the people 
to do that."  Obviously, it is your job to decide what you want me to take 
on, and we will do it.  The point, though, is that one of the reasons we 
continue to push for a self-regulatory solution and we have a lot of 
experiences with self-regulatory solutions, is because if we are looking at 
something where even members of the industry, because of differing 
interests, because of different things that have happened and so forth, and 
because of the difficulty of this problem, are saying, "We can't get it 
right together."  My only point is it may be difficult for those of us who 
actually aren't working in this industry to do it.  Now granted, when you 
have a law enforcement stick, I realize that sometimes people suddenly 
get more reasonable.  Of course, I understand that that is what we do.  
But nonetheless, what we really want here is speedy and efficient fixing 
of cars.  That is what we really want.  We don't want a lot of lawsuits.  
And so my point is that if they could come up with, and what we have 
been pushing for them to come up with, is a solution that can make that 
happen in a real-time basis, that is what is really going to work for 
consumers, and that is what is really going to resolve their frustration.
	MS. SCHAKOWSKY.  You said that you haven't gotten complaints, 
but I know that you referred to the 60 hours of discussions with the 
Better Business Bureau.  Apparently, they have received complaints, is 
that not correct?
	MS. MAJORAS.  I don't know whether the Better Business Bureau 
has or not.  I have never heard that.  I know, you know, CARE has told 
us about complaints that they know about, but I don't recall the BBB 
telling us that they had.  The BBB often serves as a mediator in such 
situations, which is why we suggested that they be brought in.
	MS. SCHAKOWSKY.  Right.  In 2004, the Federal Trade Commission 
sent a letter to our committee spelling out a number of the problems with 
the predecessor H.R. 2735, and you mentioned that there were a number 
of revisions that you applied.  So what is your opinion of this version of 
the bill?
	MS. MAJORAS.  The opinion is it is much improved, but we would 
still prefer to see a self-regulatory solution.
	MS. SCHAKOWSKY.  Okay.  And as I said last year, you did 
participate with the stakeholders in an attempt to create this self-
regulatory program.  In a letter addressed to the FTC at the end of the 
discussions, the CBBB concluded that there were a number of 
outstanding issues that would need to be resolved for a self-regulatory 
program to be created.  Do you think that H.R. 2048 addresses those 
issues?  What would the bill need to do?  If we were doing a bill, what 
would it need to do to address the problems that are still outstanding?
	MS. MAJORAS.  Well, it doesn't address the issues specifically, and 
of course, some of the agreement that was reached and some of the 
disagreements that went to that are about having this board that would be 
able to try to resolve disputes in real time.  And so one thing that the 
legislation could look at is whether Congress could establish that sort of 
a board.
	The other thing that I think needs to be resolved is exactly what are 
we trying to do here.  There is an issue.  The one that is talked about is 
we need to get the information to the independents so they have the 
information to fix the cars.  The tools issue, though I have learned, is a 
different issue, and this is shops wanting to be able to purchase tools 
cheaply and therefore wanting to put terms on what could be charged by 
the auto manufacturers.  That, I understand, was a pretty significant issue 
in the talks as well, and I think to prevent problems down the road, that 
would probably need to be addressed perhaps more specifically in this 
bill.
	MS. SCHAKOWSKY.  Thank you
	MS. MAJORAS.  You are welcome.
	MR. STEARNS.  The gentleman from Nebraska, Mr. Terry.
	No questions.
	Mr. Dingell.
	MR. DINGELL.  Mr. Chairman, thank you.
	Madame Chairman, welcome to the committee.
	MS. MAJORAS.  Thank you.
	MR. DINGELL.  The Commission has jurisdiction over the following 
items: consumer protection, unfair and deceptive practices in trade, anti-
competitive practices, actions which constitute monopoly or are in 
restraint of trade or tending to the restraint of trade or tending towards 
monopoly.  So there is broad authority in the Federal Trade Commission 
to address questions of this kind if that needs be done, is that not correct?
	MS. MAJORAS.  Correct, if it rose to the level of an anti-trust 
violation.  That is correct.
	MR. DINGELL.  I want to be sure, you said correct.
	MS. MAJORAS.  Correct.
	MR. DINGELL.  Now I want to be very clear here.  I heard you tell the 
chairman that you have had no complaints in any of these areas, and you 
have had no complaints about the subject matter which the bill might 
address.  Is that correct?
	MS. MAJORAS.  None this year.  I can't speak for forever in the past, 
but it is--
	MR. DINGELL.  Since January 1?
	MS. MAJORAS.  Correct.
	MR. DINGELL.  Now then, let us address the question prior to 
January 1, would you have any complaints about behavior which would 
contravene the context of the legislation before us?
	MS. MAJORAS.  We are not aware of any.  We haven't gone back in 
past years for our entire database.
	MR. DINGELL.  Would you, as a kindness to me and the committee, 
and in the interest of having an adequate record, please do that and find 
out how many complaints you have had in a reasonable time prior to 
January 1 so that we might evaluate whether or not there is anything 
going on here of significance that requires legislative action by the 
Congress?
	MS. MAJORAS.  I would certainly like to do that for you.  Let me just 
check, because have hundreds, now we have millions of complaints of--
	MR. DINGELL.  Madame Chairman, I am not asking for excessive 
actions on your part.  I am asking--
	MS. MAJORAS.  All right.
	MR. DINGELL.  --only for your best efforts.
	MS. MAJORAS.  All right.
	MR. DINGELL.  I am satisfied that you will give that to us.
	MS. MAJORAS.  We will always make our best effort, sir, of course.
	[Response appears at the end of the hearing record.]
MR. DINGELL.  I want you to know, I have great respect for you and 
also for the Commission.
	MS. MAJORAS.  Thank you.
	MR. DINGELL.  Mr. Chairman, I thank you for your courtesy to me.
	I thank you, Madame Chairman.
	MR. STEARNS.  I thank the gentleman.
	Mr. Murphy is recognized.
	MR. MURPHY.  Thank you, Mr. Chairman.
	Just a couple of questions.  As I have been meeting with constituents, 
whether they are auto dealers or independent repair shops, on this, there 
are a number of issues that continue to come out, which I am wondering, 
in your reading of this bill, does this address that.  One is the issue of 
parts, and that is that manufacturers of the automobiles make their own 
parts, and yet I am getting a sense from some other suppliers that they 
would like the ability to build or access to build aftermarket parts and 
provide a competitive price.  What I am hearing from auto dealers and 
manufacturers is they made it.  They would like people to use this quality 
part, and they don't want to be responsible for someone using something 
that could be secondary.  A second issue is the procedures for repair, and 
this can be anything from how to take care of something in the 
complicated system of an automobile to very often an electronics issue.  
For example, a body shop may repair the car, but now the lights on the 
panel are still on and something else is not working, and they need to 
take that car, literally drive it over to an automobile dealer, have the 
buttons reset with their software, and also know how else to do that, and 
they feel they can't get that information.  And the third one is just the 
software for the diagnostic analysis of the problems that a car may be 
having that does not operate effectively.  So it is the parts, the procedures 
for repair, and the software for the diagnostic analysis.  Do you feel that, 
from your review of this legislation, this bill addresses those kinds of 
concerns adequately, or is there something else we should be looking at 
in the wording of that legislation?
	MS. MAJORAS.  Well, I think on the first issue, I think parts are not 
what are addressed here.  It is the diagnostic tools.  But I think it is the 
same sort of issue, as I understand it.  Generic makers of parts, but also 
diagnostic tools, sell them more cheaply, typically, than do the 
manufacturers, and I understand that those in the aftermarket want to 
make sure that reasonable prices are charged to them.  And what I can't 
tell exactly, the bill here uses the phrase "for reasonable business 
means".  And I am not sure whether that is a sort of pricing mechanism 
or not.  I am not recommending one, but I am not sure about that.
	On the electronic information, my understanding is that that is 
exactly what this bill is intended to get at and on a non-discriminatory 
basis, this would need to be provided.  
	And software diagnostics, I may have just addressed, sir, when I 
addressed your question on parts, I believe.
	MR. MURPHY.  And then let me ask another question or two.  I am 
laying those out as things you could perhaps get back to us on.  I 
recognize a lot of this is going to need further analysis.  But you had 
addressed the chairman's questions.  Basically, you said you have not 
received direct complaints about these issues.  Would they go to another 
agency or some other group if there were complaints on these besides the 
Federal Trade Commission?
	MS. MAJORAS.  They might go to another group.  I am sorry.  I can't 
remember the name.  I don't believe it is a government agency.  It is 
possible that they wouldn't--
	MR. STEARNS.  Will the gentleman yield?
	Is it possible that they would go to NHTSA, the National Highway 
Safety Commission, Madame Chairwoman?  Would they go there, 
perhaps, instead of you or to the Consumer Products Safety 
Commission?
	MS. MAJORAS.  I don't believe the Consumer Products Safety 
Commission unless there was truly a safety issue with the particular part 
of the car.  It is possible.  The National Association of Consumer Agency 
Administrators often have auto repair issues, I understand, on the top of 
their complaint list.  And that is another possible area.  But Mr. 
Chairman, I am not aware that NHTSA collects such complaints.
	MR. MURPHY.  Thank you, Mr. Chairman.
	It was just one of those issues that I would hope, in your review, if 
there are other areas where complaints may be occurring, wherever that 
might be.  Even if they were from some of the professional organizations 
that are out there, it would be important to have accurate information on 
those issues.  I appreciate that.
	Thank you, Mr. Chairman.
	MS. MAJORAS.  Thank you.
	MR. STEARNS.  I thank the gentleman.
	Ms. Baldwin.
	MS. BALDWIN.  Thank you, Mr. Chairman.
	Madame Chairwoman, in my opening statement, I referenced that 
my interest in this legislation stems from a company in my district that 
became unable to perform some of its functions due to an encrypted 
system that had been installed in the equipment that they tried to 
maintain by the manufacturer.  And I know that it is not in the same 
industry that we are talking about.  But granted you are not really excited 
about the legislation before the subcommittee today, but I would like you 
to elaborate on your answer to Mr. Dingell's question about what tools 
do exist right now within the FTC.  Do you have jurisdiction to ensure 
that large manufacturing companies, whether automakers or, as the 
example I supplied earlier, the energy supply companies, or some other 
industry, won't strive to take over the services performed by smaller, 
sometimes independent "mom-and-pop" shops, if you will, steering 
consumers toward manufacturer-approved or manufacturer-related repair 
operations?  And more importantly, what tools exist for you to protect 
consumer choice?
	And if you would, just maybe walk us through how you would tackle 
one of these in the absence of legislation, like the bill before the 
subcommittee today.
	MS. MAJORAS.  Okay.  Well, what we would do is look to the anti-
trust laws, because that is what is encompassed in our work under 
Section 5 in competition.  And we would look at the entire picture for 
consumers with respect to competition, and generally, the first thing that 
we look at is does the manufacturer who is being accused of doing this 
have market power.  And we would look at that throughout the whole 
marketplace.  So for instance, the tendency is to look simply in the 
aftermarket, but in fact, we have to look at what the manufacturer is 
doing all of the way through the chain and whether they have market 
power.  So for example, a manufacturer may not have market power in 
this space, because in fact, if they are so determined to drive out 70 
percent of the repair shops in this country, that they stop letting them 
have access to this information, and let us just say car company A, 
because I don't want to use a real live example, then people are going to 
talk about that.  And we have consumers who are really powerful who 
are going to know about that, and we are going to tell our friends and 
family, and people are not going to want to buy a car from car company 
A, because they want to get their car fixed at the shop where they want to 
fix it.  so we would look at whether the manufacturer, for example, has 
so much power that, in fact, they can dictate this completely without 
losing a sufficient amount of business so that they could therefore drive 
out all of the independents and only work with the dealers.
	Now I will say one other thing, and I know you have limited time, it 
is just complicated.
	The one thing to remember about the anti-trust laws today, and the 
Supreme Court just affirmed this in 2004, is that typically, under the anti-
trust laws, we start with the presumption that companies have the right to 
deal with whom they wish.  In this situation, though, it would seem that 
manufacturers have an economic interest in dealing with these shops 
because otherwise consumers are going to become quite angry and stop 
buying particular buys where they can't get their car fixed.
	MS. BALDWIN.  How long would a comprehensive examination like 
that take from point of contact for the FTC in complaint?
	MS. MAJORAS.  Well, you are talking about a law enforcement 
investigation now and not a Congressional inquiry?
	MS. BALDWIN.  The investigation you just described.
	MS. MAJORAS.  Okay.  Anti-trust investigations take a while.  We 
have to call an economist, I admit, and so it could take, certainly, a year 
and maybe more.
	MS. BALDWIN.  Okay.  Now looking at the legislation before us, if it 
were to pass into law, it requires that within a year of enactment of the 
bill, the FTC-prescribe regulations for disclosing information.  However, 
it does not specify what terms the service providers and manufacturers 
should operate under during the transition time, the period of time 
between the passage of the bill and the FTC regulations.  What do you 
see sort of happening during that transition time?  And do you think that 
in that intervening time, NASTF should be used to settle complaints 
about access to repair information?  Or what would you see the transition 
time looking like?
	MS. MAJORAS.  I think probably using that organization, which is 
now trying to improve itself to be better able to handle these complaints, 
would probably be our best bet.  And I would have to check with our 
General Accounting Office.  It might be possible for us to issue a 
preliminary regulation that says this is what we are going to do in the 
interim until we actually can get the regulation into place.
	MR. STEARNS.  I thank the gentlelady.
	The gentlelady from Tennessee, Mrs. Blackburn.
	MRS. BLACKBURN.  Thank you, Madame Chairman.  We appreciate 
your time on this.
	I want to be certain that I heard you correctly in answer to Mr. 
Dingell's question that you have had no complaints on this issue this 
year.
	MS. MAJORAS.  Correct.
	MRS. BLACKBURN.  Okay.  And then in the findings section of the 
legislation that we are discussing today, H.R. 2048, there is point seven.  
And I want to see if you agree or disagree with this: "Automobile 
manufacturers have restricted access to the information motor vehicle 
owners need in order to diagnose, service, and repair their vehicles in a 
manner that has hindered open competition among repair facilities."  Do 
you agree or disagree with that statement?
	MS. MAJORAS.  I don't have the information in front of me.  I am not 
aware that this is the case.
	MRS. BLACKBURN.  So you are not aware? You have no findings at 
the FTC that would indicate that to be a true statement?  Would you 
agree with that?
	MS. MAJORAS.  That is correct.
	MRS. BLACKBURN.  Okay.  Also, I want to be sure that I am 
understanding and making my notes correctly, that the two main issues 
causing the groups not to agree on a private system of handling this, 
which, as you have said, a self-regulatory system is preferred, the two 
main disagreements are government and then the requirement of the 
information from the manufacturers, the tools that they would need?
	MS. MAJORAS.  Yes, and penalties for non-compliance.  That would 
be the third I would put in that category.
	MRS. BLACKBURN.  Okay.  So you would actually make it three?  
Thank you.
	And have either the FTC or the GAO done a study on this issue?
	MS. MAJORAS.  We have not.
	MRS. BLACKBURN.  You have not?  Okay.  Do you know if anyone 
other than a couple of the groups pushing the legislation, has anyone else 
done a study to identify problems?  Are you aware of anyone else?
	MS. MAJORAS.  No, I am not aware.
	MRS. BLACKBURN.  I was not, either.  I thought maybe that you 
could provide some insight there.
	Do you think that a GAO study would be necessary on this issue or a 
study from you all would be necessary?
	MS. MAJORAS.  Well, I think it certainly could be helpful.  There 
obviously have been a number of questions raised in the subcommittee 
about the extent of the problem, and I am afraid I can't today provide 
you that information, and I--
	MRS. BLACKBURN.  Okay.  Well, that is fine.  And I understand that 
is difficult for you to do, because you haven't had complaints.  So we are 
trying to solve a problem that some people would say doesn't exist.
	MS. MAJORAS.  Certainly some people have said that, yes.
	MRS. BLACKBURN.  Okay.  All right.  And outside of passing 
legislation, would you see any other actions that Congress should take on 
the issue that would force action on the issue?
	MS. MAJORAS.  Well, if there is a way we could find, frankly, to beat 
some heads together, again, and get the stakeholders in this back 
together, I still think, in the long run, we will all benefit from that.
	MRS. BLACKBURN.  Okay.  And thank you so much for your time.
	Mr. Chairman, I yield back.
	MR. STEARNS.  I thank the gentlelady.
	Mr. Strickland.
	MR. STRICKLAND.  Mr. Chairman--
	MR. STEARNS.  I am sorry.  I beg your pardon.  Mr. Gonzalez.  I am 
sorry.  Mr. Gonzalez, I beg your pardon.
	MR. GONZALEZ.  Ted, I am late for a meeting, otherwise, I would let 
you go.
	But real quick, Madame Chair, let me ask you.  In your opinion, 
from your vantage point, is there a problem that would require federal 
legislation?
	MS. MAJORAS.  I can't tell yet.  What I have seen is anecdotal 
evidence.  I am very sympathetic to those who had a problem based on 
that anecdotal evidence.  When we have asked to at least drill down on 
the anecdotes so we could, you know, get both sides of the story and try 
to figure it out, we have not received that information.  So I am just 
handicapped by not having very much information.
	MR. GONZALEZ.  If we had a problem that reached to the appreciable 
degree or extent, wouldn't you expect that it be your agency that would 
be the focal point receiving those complaints?  Or where else would 
people go?  Who else has jurisdiction?  Who else would be looking into 
the complaints?
	MS. MAJORAS.  I am not aware of any other agency that would take 
such a complaint.  We receive complaints of all types, as you know.  
Probably it would be us, but in fairness, there are times when consumers 
just don't know who to call.
	MR. GONZALEZ.  Right.  Well, maybe Charlie Gonzalez owning his 
car, or not a Member of Congress, of course, but surely the repair shop 
where I am going or their association or organization would be 
sophisticated enough to know that this might be something your agency 
would be the appropriate agency to contact?
	MS. MAJORAS.  Certainly these organizations--
	MR. GONZALEZ.  I mean, there is no one in this audience that doesn't 
know that and that would be testifying today.  But by your own 
testimony, there doesn't appear to be evidence that it has reached that 
point.  So where we find ourselves today is, for whatever reason, because 
it is a very popular argument, and I would agree with it.  I buy a car from 
a manufacturer, it is out of warranty or whatever it is, there is some 
reason I don't want to go to that dealer.  I believe that I am entitled to the 
information that would allow me to get it repaired, whether I want to do 
the repairs myself or I want to take it to a local operation there in my 
neighborhood.  And so I think we have had this discussion before, and I 
think I have had manufacturers and others say, "Yes, we probably do 
owe that to our customer, our consumer, the individual that bought the 
car."  So is it just a matter that we go ahead and provide a power of 
attorney to those that repair our cars?  It is all kind of crazy, but this is 
what has happened.  There has been a problem out there.  It is a very 
popular one that appeals to many.  It is understandable on the most basic 
level, at the consumer level, and so we responded, and we said, "Okay.  
All stakeholders, get together and come up with a solution to this 
problem, which we are not really sure to the extent or the degree that it 
exists."  When there wasn't any movement, then all of a sudden, it 
appears that we will assume that responsibility.  But we are assuming a 
responsibility for a problem that may not even exist, to the extent that it 
really requires federal legislation.  And I am being told by the chair of 
the agency or the department in government that should be the recipient 
of all of these complaints that you are not receiving any.  And it is really 
difficult for me to justify going forward with this piece of legislation at 
this point in time.
	But I do appreciate your testimony and the job that you are doing, 
and I understand what you are saying is, "If you are going to do this to 
us, at least give us the resources."  And you surely deserve that.
	Thank you very much.
	I yield back.
	MS. MAJORAS.  Thank you, sir.
	MR. STEARNS.  There is no one on this side.
	Mr. Strickland.
	MR. STRICKLAND.  Mr. Chairman, I was not here for opening 
statements, and I would request permission to--
	MR. STEARNS.  With unanimous consent, so ordered.
	MR. STRICKLAND.  And I have no questions for the witness.
	MR. STEARNS.  Okay.
	MR. STRICKLAND.  Thank you.
	MR. STEARNS.  The questions are over, and so we will go to the 
second panel.
	We want to thank the chairwoman for her indulgence and patience, 
and we appreciate her coming every time she does.
	And thank you.
	And we will bring up the second panel.
	MS. MAJORAS.  Thank you, Mr. Chairman--
	MR. STEARNS.  Sure.
	MS. MAJORAS.  --Madame Ranking Member.
	MR. STEARNS.  My colleagues, Ms. Nancie G. Marzulla, Partner, 
Marzulla & Marzulla on behalf of the Coalition for Auto Repair Equality 
is here.  Second, is Mr. Michael Stanton, Vice President, Government 
and International Affairs, the Alliance of Automobile Manufacturers.  
We have Mr. Aaron Lowe, Vice President Government Affairs, 
Automotive Aftermarket Industry Association, and Mr. Charles G. 
Gorman, Chairman of the National Automotive Service Task Force.  We 
welcome all four of you.
	And Ms. Marzulla, we will start with you with your opening 
statement.  If you don't mind, just put on the microphone and move it 
close to you so that we can hear you.

STATEMENTS OF NANCIE G. MARZULLA, PARTNER, 
MARZULLA & MARZULLA, ON BEHALF OF THE 
COALITION FOR AUTO REPAIR EQUALITY; MICHAEL J. 
STANTON, VICE PRESIDENT, GOVERNMENT AND 
INTERNATIONAL AFFAIRS, THE ALLIANCE OF 
AUTOMOBILE MANUFACTURERS; AARON LOWE, VICE 
PRESIDENT, GOVERNMENT AFFAIRS, AUTOMOTIVE 
AFTERMARKET INDUSTRY ASSOCIATION; AND 
CHARLES G. GORMAN, CHAIRMAN, NATIONAL 
AUTOMOTIVE TASK FORCE



	MS. MARZULLA.  Thank you, Mr. Chairman.  I am delighted to be 
here.  And I thank you, as well, members of the subcommittee.
	As I said, I am delighted to be here today to testify in support of H.R. 2048.  I have been actively involved in the legal research and analysis 
of the motor vehicle owners' right to repair since this bill's inception.  As 
a partner of the Washington, DC law firm of Marzulla & Marzulla, I serve 
as outside counsel of the Coalition for Auto Repair Equality.  I also serve 
as a part-time Director of Defenders of Property Rights, a national non-
profit organization devoted to protecting property rights.  Having 
devoted many years of my professional life to advocating for greater 
protections for all forms of property, I actually had to step back and 
independently research and satisfy myself that intellectual property rights 
would not be infringed by CARE's approach to this issue before I agreed 
to come on board.
	Having done so, however, I am here today to express my 
wholehearted and enthusiastic support for the Right to Repair Act.  This 
act, I can confirm, is anchored on bedrock law.  The right-to-repair 
doctrine is based on concepts of fairness and common sense.  It says that 
if you buy a product, you have the legal right to make any and all repairs 
to that item throughout the product's useful life.
	The right-to-repair doctrine is not a new principle.  It was 
established over 150 years ago by the United States Supreme Court in a seminal 
case, Wilson v. Simpson.  In that case, the Supreme Court held that a 
consumer who purchases a new product or good has a right to repair or 
replace parts or components when they become broken or worn out.  The 
right-to-repair doctrine has been consistently applied to automobiles.  In 
Electric Auto Lite Company, the court found no patent infringement 
when the defendant was merely providing replacement parts for a 
patented ignition system in a motor vehicle.  In Dana Corp., the federal 
circuit court of appeals held that rebuilding clutches on heavy-duty 
trucks was "permissible repair".  In Aero Manufacturing Company, the 
Supreme Court held that the doctrine permitted replacement of worn-out 
fabric for the patented folding top of a convertible.
	And of course, the right-to-repair doctrine doesn't just apply to 
cars.  The doctrine applies to all kinds of manufacturing products we 
encounter in our daily lives, such as refrigerators, dishwashers, washing 
machines, computers, or air-conditioning units.  Thus, you may buy your 
computer from Dell but you can call Computer Geeks or Geeks on Call if 
something inside your computer breaks or if you want to take the back of 
the computer off and install more memory.  Dell doesn't have the legal 
right to tell you that you have to send the computer back to Dell just to 
make a repair or upgrade the computer.
	In April, the United States Court of Appeals for the federal circuit, 
relying on the Supreme Court's Decision in Aero Manufacturing 
underscored the continuing vitality of the right-to-repair doctrine, stating 
that the purchaser's long-established right to use and repair an article that 
has been legally purchased from the patentee.
	Although the right-to-repair doctrine is well-established at common 
law, the use of computers in the modern vehicle is increasingly 
interfering with the vehicle owner's ability to exercise his right or her 
right to even diagnose much less service or repair a vehicle.  Without the 
information necessary to access the computer in the vehicle, the owner 
can't even accurately diagnose what is wrong with the car, much less 
make simple repairs.  Without the ability to talk to the computer in the 
vehicle, cheaper, more readily available replacement parts can not be 
installed in the vehicle, because the computer may be programmed to 
reject them.  Even the replacement parts may be of superior quality.
	In closing, let me stress that nothing in H.R. 2048 will authorize 
anyone to reproduce or distribute any patented product or creative work, 
and all remedies for violations of patents, copyrights, trade secrets, and 
trademarks remain in force under the bill.
	In short, H.R. 2048 will do nothing more than simply allow car 
owners to continue doing what they have always done: change their tires, 
replace worn-out engine parts, install new batteries, upgrade stereo 
systems, replace burned-out taillights, and fix broken ignition systems.
	I would be happy to answer any questions that you may have.
	Thank you.
	[The prepared statement of Nancie G. Marzulla follows:]

PREPARED STATEMENT OF NANCIE G. MARZULLA, PARTNER, MARZULLA & MARZULLA, 
ON BEHALF OF THE COALITION FOR AUTO REPAIR EQUALITY

	Thank you Mr. Chairman and Members of the Subcommittee. I am 
pleased to be here today to testify in support of H.R. 2048, the Motor 
Vehicle Owner's Right to Repair Act on behalf of the Coalition for Auto 
Repair Equality (CARE).  CARE is a non-profit organization representing 
companies in the $200 billion-a-year, five million employee aftermarket 
industry.  CARE's members operate businesses at 34,820 locations 
throughout the United States.  Of these, 15,270 are automobile repair 
facilities.  CARE's members also include companies that sell replacement 
parts to "do-it-yourselfers" or independent repair facilities. 
     Second only to a home, the automobile is the most expensive thing a 
consumer buys. A motor vehicle is quintessentially a consumer product that 
must be regularly maintained and repaired in order to operate safely and 
properly.  For example, brakes wear out and must be replaced.  Likewise, 
transmissions become worn and need repair.  Finally, even engine parts wear 
out and must be continually serviced and repaired.  In short, virtually 
any component of an automobile will wear out and need replacement or service over the useful life of a vehicle. 
	The American automobile owner has long enjoyed the right to choose 
by whom, where, and when to have his or her vehicle diagnosed, serviced, and 
repaired without this choice being dictated by the automobile's manufacturer.  
This right to repair is something the vehicle owner buys at the time he or 
she purchases the automobile, and this freedom of choice is the American way 
of car ownership.  The car belongs to the owner, and he or she may repair, 
service, improve or change accessories as desired.  Such choice allows 
the vehicle owner to develop relationships with local or small independent 
repair shops.  Likewise, the owner can shop around, and search for and 
compare prices or hours of operation.  The owner can also choose the brand 
and quality of fluids, filters, batteries, tires and other replacement parts 
he or she wishes to install and, if he or she is talented enough, can install 
them.  If the automobile manufacturers have their way, however, this 
proud American tradition of auto ownership ability to choose who and where an 
automobile will be repaired will be as commonplace as a horse and buggy.
	This is because automobile manufacturers are increasingly using 
technology to successfully "lock out" automobile owners from maintaining and 
repairing their vehicles.  Thus, even such seemingly simple matters as 
determining what a light on a dashboard means requires a trip to the 
dealership.  Modern automobiles contain computers that control many 
components such as the braking system, the steering mechanism, air bags, 
ignition, and the climate control system.  Lacking the ability to talk to 
the vehicle's computers, the owners or their auto technicians cannot begin 
to diagnose, service, or repair modern vehicles.  Thus, increasingly, 
manufacturers are forcing vehicle owners to go to only one place for their 
service and repairs, to automobile dealers.  This scheme, to destroy the 
competition for automobile service and repair, is anticompetitive.  Moreover, 
forcing the vehicle owner to go back to the dealer for diagnosis, service, 
and repairs of the vehicle defies the settled and reasonable expectations of 
the American automobile consumer to choose who and where to have his or her 
vehicle repaired.    
     Although it is impossible to know the exact extent of the current 
problem, we estimate that independent repair technicians are turning away 
approximately 15 percent of all vehicles because manufactures have not 
released the information, information that they do release to their 
representatives.  Because we are just now working with vehicles coming off 
their five-year warranty, the first generation of computer-controlled cars, 
we are seeing just the tip of the problem and we believe this number to be 
increasing each year as the auto fleet matures.  This would be consistent 
with Automotive Service Association's testimony before the U.S. Senate in 
2002 that 15 percent of all incidents of service are rejected due to lack of 
repair, which amounts to 161 million incidents of nonrepair, costing the 
industry 18 billion dollars.
     A survey conducted by the Tarrance Group several years ago provides 
empirical evidence that 2 million Americans are annually forced to take their 
automobiles to manufacturers' representatives rather than independent repair 
shops.  A poll of 800 owners or managers of automotive aftermarket businesses 
found that 59 percent have problems getting the necessary information to 
repair or provide parts for automobiles.  That poll also found that 44 
percent of aftermarket shops send one to six vehicles per month to a 
manufacturer representative for repair because of lack of information or 
tools, while another nine percent send over six vehicles per month.  With 
approximately 178,000 independent repair shops in this country, that means 
approximately 2 million vehicles per year are diverted from independents to 
manufacturers' authorized representatives, a substantial disruption of the 
free market and a denial of the right of 2 million Americans to choose who 
will repair and service their automobile each year.
	Increasingly, thus, the independent repair shop can no longer access 
the sophisticated on-board computers at all, and the automobile owner often 
has no choice but the manufacturer representative to service and repair the 
vehicle.  This legislation will halt the demise of the independent repair 
shop, and preserve the vehicle owner's right to choose who will repair the 
vehicle.

I.	The Consumer's Right to Repair
     The right of the consumer to repair a piece of equipment that he or she 
purchased is bedrock law.  In the landmark case, Wilson v. Simpson, 50 U.S. 
109 (1850), the United States Supreme Court established the right to repair 
doctrine, holding that a consumer who purchases a new product or good has the 
right to repair or replace parts in that product or piece of machinery when 
they had become broken or worn-out.
     Wilson involved a claim of patent infringement.  In this historic case, 
an owner of a planning machine was sued for patent infringement because the 
owner had replaced worn-out cutter knives that were part of the machine.  
The Supreme Court held that the owner had a right to repair or replace parts 
of the machine, even if the machine, as a whole, was subject to a patent:
     It is the use of the whole of that which a purchaser buys, when the 
patentee sells to him a machine; and, when he repairs the damages which may 
be done to it, it is no more than the exercise of that right of care which 
every one may use to give duration to that which he owns, or has a right to 
use as a whole. . . . 
     The right to repair and replace in such a case is either 
in the patentee, or in him who has bought the machine. Has the patentee a 
more equitable right to force the disuse of the machine entirely, on account 
of the inoperativeness of a part of it, than the purchaser has a right to 
repair, who has, in the whole of it, a right to use? 
     Id. at 123.  The Court emphasized the fact that the planning machine 
was designed to last for several years, while cutter-knives, which are a 
part of the planning machine, were designed to last only sixty to ninety days. 
Thus:   
     The right of the assignee to replace the cutter-knives is not because 
they are perishable materials, but because the inventor of the machine has so 
arranged them as a part of its combination, that the machine could not be 
continued in use without a succession of knives at short intervals.  Unless 
they were replaced, the invention would have been but of little use to the 
inventor or to others.
Id. at 125.
     Justice Oliver Wendall Holmes subsequently applied this doctrine in 
Heyer v. Duplicator Manufacturing Company, 263 U.S. 100, 101 (1923).  In 
Heyer, the Supreme Court reviewed another patent infringement case involving 
the patent for "improvements in multiple copying machines."  One part of that 
machine was a band of gelatine attached to a spool or spindle that fit into 
the machine and allowed a print to be multiplied up to about a hundred times. 
The Court upheld the right of the consumer to replace the bands explaining 
that "[t]he owner when he bought one of these machines had a right to 
suppose that he was free to maintain [its] use, without the further consent 
of the seller, for more than the sixty days in which the present gelatine 
might be used up.  The machine lasts indefinitely, the bands are exhausted 
after a limited use and manifestly must be replaced."  Id. at 101-02; see 
also Schayer v. R.K.O. Radio Pictures, 56 F. Supp. 903 (S.D.N.Y. 1944) 
(holding repair and maintenance of machine did not constitute patent 
infringement); Westinghouse Electric & Mfg. Co., 131 F.2d 406 (6th Cir. 
1942) (holding that replacing parts of an "automatic progressive-feed stoker" 
did not constitute patent infringement); F.F. Slocomb & Co. v. A.C. Layman 
Mach. Co., 227 F. 94 (D. Del. 1915) (holding that both owner of machine and 
third party effecting repair of machine have right to replace parts of the 
machine); and, Thomson-Houston Electric Co. v. Kelsey Electric Railway 
Sepcialty Co., 75 F. 1005 (2d Cir. 1896)(upholding the right to replace 
trolley stands as not violative of patent holder's rights).
     In 1935, the U.S. Court of Appeals for the Second Circuit again applied 
the "right of repair" to two separate suits involving the repair and use of 
replacement parts of a motor vehicle.  In Electric Auto Lite Company v. P. & 
D. Manufacturing Company, 78 F.2d 700, 703-4 (2d. Cir. 1935), the court 
reviewed a lower court decision that found no patent infringement where the 
defendant was merely providing replacement parts for a patented 
ignition system in a motor vehicle.  The Second Circuit upheld the lower 
court's decision and in so doing, left no doubt that a car owner has the 
right to repair his or her car by replacing broken or worn-out parts:
     A purchaser of a car having an ignition system made pursuant to any of 
these patents was entitled to have it repaired when necessary or replaced 
as to any of the parts in issue, in order to enjoy the continued usefulness 
of this ignition system.  The car owner could repair or replace the part and 
would not be guilty of infringement if he did so.  In like manner, he had 
the right to obtain the necessary part when his own need therefor arose.  
Indeed, the ignition apparatus is so designed and built as to make it 
possible to quickly and simply detach, for replacement purposes, the parts 
referred to and thus to meet the demands of wear or destruction. 
Id. at 703.
     In the second case, General Motors Corporation v. Preferred Electric & 
Wire Corporation, 79 F.2d 621 (2d Cir. 1935), the Second Circuit Court of 
Appeals again upheld a vehicle owner's right to replace the parts of an 
ignition system in his or her motor vehicle.  The court stated that the 
right to repair or replace such parts is:  
     an incident of the rightful use of the purchased car.  After purchase, 
the car owner has an apparatus wholly free from the limits of a monopoly.  
That it is no infringement to make ordinary repairs or replacements that 
may reasonably be expected as necessary during the life of the car as a 
whole has been established by authorities. 
     Id. at 623 (citations omitted).  The court further noted that such 
vehicle parts are "intentionally made so that they might be quickly 
detached and replaced when worn.  They were relatively perishable and wore 
out before the device as a whole was worn and, moreover, it was the custom 
of the trade to effect repairs by replacement of the defective parts."  Id. 
     More recently, in Aro Manufacturing Company v. Convertible Top 
Replacement Company, 365 U.S. 336 (1961), the Supreme Court applied the 
right to repair doctrine in a patent infringement suit regarding a certain 
patented folding top for a convertible motor vehicle.  The defendant 
manufactured and sold replacement fabrics to be put into the patented 
combination.  The Court concluded that the replacement of the fabric was a 
"permissible repair."  Id; see also Hewlett Packard Co. v. Repeat-O-Type 
Stencil Mfg. Co., 123 F.3d 1445 (Fed. Cir. 1997), rehearing denied, 
suggestion for in banc declined (Oct. 14, 1997)(quoting Mitchell v. Hawley, 
83 U.S. (16 Wall.) 544, 547 (1872) ("[T]he rule is well established that the 
patentee must be understood to have parted to that extent with all his 
exclusive rights and that he ceases to have any interest whatever in the 
patented machine so sold and delivered."); R2 Medical Systems, Inc. v. 
Katecho, Inc., 931 F. Supp. 1397, 1442 (N.D. Ill. 1996) ("Once a patent 
owner sells a patented article, the purchaser also acquires an implied right 
to use and maintain that article continually. . . . The right to repair 
extends to the replacement of perishable components whose useful life 
is regularly exhausted by the proper use of the article."); Sage Products, 
Inc. v. Devon Indus., Inc. 45 F.3d 1575 (Fed. Cir. 1995) (holding doctrine 
of repair is not limited to temporary or minor repairs; it encompasses any 
repair that is necessary for maintenance of use or use of the whole of 
patented combination through replacement of spent, unpatented element.); 
FMC Corp. v. Up-Right, Inc., 21 F.3d 1073, 1077 (Fed. Cir. 1994)("[M]ere 
replacement of broken or worn-out parts, one at a time, whether of the 
same part repeatedly or of a different part successively, is not more than 
the lawful right of the owner to repair his property.").
     Although the right-to-repair doctrine is well established at common 
law, the use of computers in the modern vehicle truncates the vehicle owner's 
ability to exercise his or her right to actually repair the vehicle.  
Without the information necessary to access the computer in the vehicle, 
the owner cannot accurately diagnosis repair symptoms.  Without the ability 
to access the computer in the vehicle, cheaper and more readily available 
replacement parts cannot be installed in a vehicle because the computer may 
be programmed to reject them, even though they are of superior quality.  
This bill updates the right to repair, bringing it into the computer age.
     Nothing in H.R. 2048 authorizes anyone to reproduce or distribute any 
patented product or creative work, and all remedies for violations of patents 
and copyrights remain in force under the bill.  The Copyright and Patent 
Clause of the United States Constitution provides as to copyrights: "Congress 
shall have Power . [t]o promote the Progress of Science . by securing for 
limited Times to Authors and Inventors the exclusive Right to their 
respective Writings and Discoveries."  U.S. Const., Art. I, 8, cl. 8. 
	When granting a patent, the government allows a temporary monopoly, 
but the limits of that monopoly require public disclosure of the patent to 
take into consideration the public's interests in that invention.  69 C.J.S. 
Patents  139.  "The specification [for the patent] shall contain a written 
description of the invention, and of the manner and process of making and 
using it, in such full, clear, concise, and exact terms as to enable 
any person skilled in the art to which it pertains, or with which it is most 
nearly connected, to make and use the same, and shall set forth the best 
mode contemplated by the inventor of carrying out his invention."  
35 U.S.C.A.  112.
     In Eastman Kodak v. Image Technical Services, 504 U.S. 451 (1992), 
where the Kodak company in 1985 had "implemented a policy of selling 
replacement parts for micrographic and copying machines only to buyers of 
Kodak equipment who use Kodak service or repair their own machines," the 
Supreme Court found that the trial court could make a finding that there was 
a violation of Section 1 of the Sherman Act by Kodak making such a "tying" 
arrangement. Id. at 458, 479.  The actions by the auto manufacturers to keep 
independent service providers from obtaining the information 
necessary to repair automobiles are similar to the illegal "tying" actions 
of Kodak.  Because the auto manufacturers are "tying" their market power 
from the auto and auto parts manufacturing market to their commerce in the      
repair markets, they are violating Sherman Antitrust Act, 15 U.S.C.A.  1. 
     In In re Independent Service Organizations Antitrust Litigation 
("Xerox"), 203 F.3d 1322 (Fed. Cir. 2000), the U.S. Court of Appeals for 
the Federal Circuit held that Xerox could refuse to sell its patented 
replacement parts to independent service repair organizations.  The Federal 
Circuit acknowledged that intellectual property rights do not confer a 
privilege to violate antitrust laws, but went on to state that as a general 
rule, the antitrust laws do not prevent the owner of intellectual property 
rights from excluding others from use of its patented property.  The court 
found that unless the antitrust defendant engages in illegal tying, Patent 
and Trademark Office fraud, or sham litigation, it could enforce its 
statutory intellectual property rights without violating the antitrust 
laws.  Xerox, 203 F.3d at 1327.
     "Notably, Kodak was a tying case when it came before the Supreme Court, 
and no patents had been asserted in defense of the antitrust claims against 
Kodak.  Conversely, there are no claims in this case of illegally tying the 
sale of Xerox's patented parts to unpatented products."  Xerox, 203 F.3d  at 
1327.  Because our case with the auto manufacturers has related antitrust 
issues, the ruling in Xerox would not directly apply to our case with the 
auto manufacturers.  

II.	Role of the FTC in Protecting the Automobile Owners' Right to Repair
     H.R. 2048 authorizes the Federal Trade Commission (FTC), which is the 
nation's lead consumer protection agency, to promulgate regulations ensuring 
that new motor vehicle owners have all the information necessary at their 
disposal for diagnosing, servicing, repairing and choosing the replacement 
parts for their vehicles.  The Federal Trade Commission has in place broad 
statutory authority to enforce a variety of federal antitrust and consumer 
protection laws.  The two separate missions of the FTC are part of the FTC's 
original mandate from Congress, the Federal Trade Commission Act of 1914, 
which granted the Commission the power to determine and prevent "unfair 
deceptive acts or practices in commerce" (consumer protection mission) and 
"unfair methods of competition (antitrust mission)."  See 15 U.S.C.A.  
45(a)(1) (West 1999).
     In 1938, the Wheeler-Lee Amendment broadened the FTC's jurisdiction and 
stated, in relevant part, that "[t]he Commission is empowered and directed to 
prevent persons, partnerships, or corporations . . . from using unfair 
methods of competition in commerce and unfair or deceptive acts or practices 
in commerce."  Wheeler-Lee Amendment, ch. 49,  3, 52 Stat. 111 (1938).
     The Magnuson-Moss Act of 1974 further expanded the FTC's power to 
promulgate substantive rules regarding consumer protection.  As a result of 
the Magnuson-Moss Act, section 18 was added to the FTC Act authorizing the 
Commission to prescribe:
     (A) interpretive rules and general statements of policy with 
respect to unfair or deceptive acts or practices in or affecting commerce 
(within the meaning of section 45(a)(1) of this title), and
     (B) rules which define with specificity acts or practices which 
are unfair or deceptive acts or practices in or affecting commerce (within 
the meaning of section 45(a)(1) of this title). . . . Rules under this 
subparagraph may include requirements prescribed for the purpose of 
preventing such acts or practices.
See 15 U.S.C.A.  57a (West 1999).  This Act also altered the language of 
section 5(a)(1) of the FTC Act which now reads: "[t]he Commission is hereby 
empowered and directed to prevent persons, partnerships, or corporations 
. . . from using unfair methods of competition in or affecting commerce and 
unfair or deceptive acts or practices in or affecting commerce."  See 15 
U.S.C.A.  45(a)(1) (West 1999) (emphasis added to indicate amended language). 
     In addition to its original mandate to protect consumers against unfair 
or deceptive acts or practices under the FTC Act and its amendments, the FTC 
has also been given authority under several consumer protection statutes to 
prohibit specifically-defined trade practices and, as the present bill does, 
require disclosure of certain information to consumers.  For example, under 
the Wool Products Labeling Act, 15 U.S.C.  68-68j, the Fur Products Labeling 
Act, 15 U.S.C.  69-69j, the Textile Fiber Products Identification Act, 15 
U.S.C.  70-70k, the Federal Cigarette Labeling and Advertising Act of 1966, 
15 U.S.C.  1331-1340, and the Fair Packaging and Labeling Act, 15 U.S.C.  
1451-1461, the FTC has been given the authority to mandate content disclosure 
in the labeling, invoicing and advertising of certain products.  Similarly, 
under the Truth in Lending Act, 15 U.S.C.  1601-1667f, the FTC has been 
granted the authority to require all creditors who deal with consumers to 
make certain written disclosures concerning finance charges and other aspects 
of financial transactions, and under the Fair Credit and Charge Card 
Disclosure Act, 15 U.S.C. 1637(c)-(g), the FTC can require credit and charge 
card issuers to provide certain disclosures in applications and solicitations.
     The FTC has been given specific authority under the Consumer Leasing 
Act, 15 U.S.C.  1667-1667(f), to require that certain automobile lease 
costs and terms be disclosed.  Also, under the Energy Policy Act of 1992, 
42 U.S.C.  6201, the FTC is authorized to issue requirements for the 
labeling of certain fuels and to issue other energy-efficient rules regarding 
lamps, transformers and small electric motors. 
     The purposes of the present bill are to protect American consumers from 
the unfair and deceptive practice of vehicle manufacturers in refusing to 
disclose certain information necessary for the repair, service and diagnosis 
of their motor vehicles and to ensure that American consumers have the 
opportunity to choose their own vehicle repair technician.  The goals of 
this bill directly parallel the two missions of the FTC to protect consumers 
and encourage competition in commerce.  Furthermore, as shown above, the 
FTC has been given a broad grant of authority, under the FTC Act, to 
accomplish its missions and promulgate corresponding rules and regulations.  
Similar to the above-mentioned statutes which authorize the FTC to prohibit 
certain trade practices, the present bill would authorize the FTC to prohibit 
the unfair practice of "locking out" consumers from their own vehicles by 
requiring disclosure of information necessary to ensure that their vehicles 
are maintained and repaired accurately and safely.  Although it will certainly 
impose some new duties on the FTC, we believe that these duties are 
neither foreign to the Commission nor beyond its competence.

III.	Self-Regulation Has Failed to Protect the Consumer and to Preserve 
Competition in the Auto Repair and After-Parts Industry.
     In order for a voluntary agreement to be effective, there must be 
effective enforcement and oversight of the agreement.  
     The close vertical marketing arrangement between automobile 
manufacturers and their authorized representatives makes it easy to build in 
the repair business as part of the price the consumer ultimately has to pay 
for the vehicle, and the profit which the manufacturer representative makes 
on the sale.  This, in turn, increases the price the authorized representative 
can afford to pay the manufacturer.  To the extent the manufacturer can also 
guarantee after-market warranty repair work to its representative 
by locking out independent repair shops and after-market parts producers, 
both the manufacturer and their representatives profit at the expense of the 
consumer.  There is simply no economic incentive to allow independent repair 
shops to compete with manufacturer representatives for the same work, or to 
allow after-market parts to compete with the auto manufacturers' "genuine 
factory parts" sold at premium prices.  The legitimate role of government is 
to intervene in the case of such market failures.

IV.	A Model for This Information Disclosure Program Already Exists Under 
EPA's Mobile Source Rules
     The successful EPA program requiring precisely the same kind of 
disclosures under the mobile source provisions of the Clean Air Act leaves 
little doubt that legislative proposal will work.  Indeed, H.R. 2048 is 
directly modeled on the Clean Air Act Amendments, which insures the 
availability of the information necessary to repair the car's emissions or 
pollution control system.  H.R. 2048 simply takes the non-discrimination 
provisions already applied to the car's emissions system, and applies them 
to all of the other systems in the motor vehicle.
     In the 1990 Clean Air Act Amendments, Congress adopted a provision 
virtually identical to the present bill.  That provision states:
     The Administrator, by regulation, shall require . . . manufacturers to 
provide promptly to any person engaged in the repairing or servicing of 
motor vehicles . . . any and all information needed to make use of the 
emission control diagnostics system . . . and . . . instructions for making 
emission related diagnosis and repairs.  No such information may be withheld 
under section 7542(c) of this title [relating to trade secrets] if that 
information is provided (directly or indirectly) by the 
manufacturer to franchised dealers or other persons engaged in the repair, 
diagnosing, or servicing of motor vehicles or motor vehicle engines. . . .  

42 U.S.C.  7521(m)(5).  To implement this statute, EPA has issued 
regulations detailing what information automobile manufacturers must make 
available and specific procedures for doing so:
     Manufacturers shall furnish or cause to be furnished to any person 
engaged in the repairing or servicing of motor vehicles or motor vehicle 
engines . . . any and all information needed to make use of the on-board 
diagnostic system and such other information, including instructions for 
making emission-related diagnosis and repairs, including, but not limited to, 
service manuals, technical service bulletins, recall service information, 
data stream information, bi-directional control information, and training 
information, unless such information is protected by section 208(c) as a 
trade secret.  No such information may be withheld under section 208(c) of 
the Act if that information is provided (directly or indirectly) by 
the manufacturer to franchised dealers or other persons engaged in the 
repair, diagnosing, or servicing of motor vehicles or motor vehicle engines.

40 C.F.R.  86.094-38(g)(1); see also 40 C.F.R.  86.1808-01(f)(2)(i).
     In addition, automobile manufacturers must provide this information 
"at a fair and reasonable price" to be determined by EPA.  40 C.F.R. 
 86.094-38(g)(3); 40 C.F.R.  86.1808-01(f)(7)(i).  Any manufacturer that 
does not provide the required information at this price is deemed to have 
made the information unavailable.  40 C.F.R.  86.094-38(g)(4); 40 C.F.R. 
 86.1808-01(f)(8).  
     Each manufacturer must provide an index to its required information or 
provide the information on its website (40 C.F.R.  86.094-38(g)(5); 40 
C.F.R.  86.094-1808-01(f)(3), (10)(2)), update the index or website (40 
C.F.R.  86.094-38(g)(5)(i); 40 C.F.R.  86.094-1808-01(f)(3), (10)(2)), and 
maintain the index or website (40 C.F.R.  86.094-38(g)(7); 40 C.F.R.  
86.094-1808-01(f)(7)(i), (10)(2)).
     Manufacturers must provide the information at the same time they give 
it to their authorized representatives (40 C.F.R.  86.094-38(g)(6)), and 
must mail certain requested information within one business day of 
receiving an order.  40 C.F.R.  86.094-38(g)(9); 40 C.F.R. 
 86.1808-01(f)(10)(2). 
     Like the FTC, EPA is not an information-gathering agency, but primarily 
a regulatory agency with expansive civil and criminal enforcement authority.  
Yet EPA has found no difficulty in administering this program and, as a 
consequence, consumers have had no problem getting their pollution control 
systems repaired.
     H.R. 2048 would simply expand the consumer's right to repair to 
encompass all of the automobile's systems.  We would expect that, when 
mandated by law, automobile manufacturers will comply with the disclosure 
requirements (as they have under the Clean Air Act), minimizing any need 
for FTC involvement in enforcing these provisions.  
     I would be happy to answer any questions that you may have.
						Respectfully submitted,



						Nancie G. Marzulla

	MR. STEARNS.  And I thank you.
	Mr. Stanton.
        MR. STANTON.  Thank you, Mr. Chairman.
	Almost 500 vehicle service events are undertaken per year, and while 
automakers attempt to ensure that all information is available, we 
recognize that with millions of pages of service and repair information, 
there will be instances where that information may not be readily 
available or apparent.  Automakers try to correct these gaps as quickly as 
possible.  There are situations, however, where access to some 
information is neither reasonable nor appropriate, such as information to 
override immobilizers that are part of vehicle security systems or 
override vehicle safety or emissions operating software.
	In 2000, the National Automobile Service Task Force was created to 
facilitate the identification and correction of gaps in the availability and 
accessibility of automotive service information, service training, 
diagnostic tools and equipment.  The NASTF inquiry process, which has 
been highly publicized for several years in major trade publications, like 
Motor and Motor Age Magazine, has received only 57 requests for help 
in obtaining information for all of 2005.  In other words, on average, 
aftermarket repair technicians requested access to repair information 
from NASTF just once in every five million vehicle repairs.
	Turning to the text of H.R. 2048, we continue to have concerns about 
the need for this legislation.  We also have substantial concerns about the 
language of the legislation and several points regarding its apparent 
intent.
	First, the finding sections of the bill conclude that automakers have 
systematically engaged in "a manner that has hindered open 
competition".  This simply is not true.  Since anti-competitive behavior is 
illegal under federal and State law, branding all automakers with this 
unfounded conclusion is both unreasonable and places them at legal risk.  
Moreover, the findings address an issue that goes beyond the scope of 
the legislation, mainly whether consumers should always be able to 
choose between original parts and aftermarket parts for vehicles repairs.  
The findings, coupled with the disclosure requirements in section 3, 
create an atmosphere of promoting lawsuits under State consumer 
protection laws.  This will lead to an unnecessary increase in litigation 
and the release of proprietary information.  This threatens the 
manufacturers' intellectual property and has nothing to do with the 
availability of service information.
	Section 3 of H.R. 2048 requires "the same service and training 
information related to vehicle repair shall be made available to all 
independent repair facilities in the same manner and extent as it is made 
available to franchised dealerships".  This would include vehicle security 
information, the release of key codes, and the release of immobilizer 
override information.  This would compromise the security systems that 
have cut auto theft in half.  The Highway Loss Data Institute and a recent 
study by JP Research, Inc. confirmed the effectiveness of these systems, 
which are now in 75 percent of new models.  Decreasing the 
effectiveness of these systems could jeopardize the discount consumers 
get today on their auto insurance.
	And finally, the issues H.R. 2048 attempts to address have never 
been documented or quantified.
	And Mr. Chairman, from our viewpoint, in looking at how do we 
document this, our coalition, which is made up of all of our members, 
which is nine manufacturers, plus the Association of International 
Automobile Manufacturers, we represent all of the vehicles that are 
being sold in the United States, those manufacturers.  Our manufacturers 
tell us, in fact, that they are making all of this information available.  
They make the same information available to the aftermarket that they 
make available to the dealers.
	Secondly, another member of our coalition is the Automotive 
Service Association, which is comprised technicians.  And they will 
testify and tell you that, in fact, all of the information is available.
	Third, we look at the NASTF inquiry process.  In all of 2005, there 
were only 57 requests for information.
	And then finally, all of our members have their own databases that 
are open to the public.  The cost of them is investigated by the EPA.  
They are reasonable costs.  And yet the requests for information for those 
are all in double-digits.  And we just don't think there is a problem.
	Thank you, sir.
	[The prepared statement of Michael J. Stanton follows:]

PREPARED STATEMENT OF MICHAEL J. STANTON, VICE PRESIDENT, GOVERNMENT AND 
INTERNATIONAL AFFAIRS, THE ALLIANCE OF AUTOMOBILE MANUFACTURERS

     Thank you for the opportunity to testify before the Subcommittee on 
Commerce, Trade and Consumer Protection regarding H.R. 2048 the "Motor 
Vehicle Owners' Right to Repair Act of 2005."  I represent the Alliance of 
Automobile Manufacturers (Alliance), a trade association of nine car and 
light-truck manufacturers.  Our member companies include BMW Group, 
DaimlerChrysler Corporation, Ford Motor Company, General Motors Corporation, 
Mazda, Mitsubishi, Porsche, Toyota Motor North America and Volkswagen of 
America.  One out of every ten jobs in the U.S. is dependent on the 
automotive industry.
     Alliance member companies have more than 600,000 employees in the 
United States, with more than 230 manufacturing facilities in 35 states.  
Overall, a University of Michigan study found that the entire automobile 
industry creates more than 6.6 million direct and spin-off jobs in all 50 
states and produces almost $243 billion in payroll compensation annually.
     Historically, about 75 percent of vehicle service and repairs are 
performed in non-dealer shops.  Automakers view these non-dealer shops as 
important players in providing service to their mutual customers, the 
driving public.  Just as motor vehicles have become more complex, the 
servicing of them has also become a high technology business requiring 
skilled, trained technicians and a sizeable investment in diagnostic and 
repair equipment.  Automakers provide independent repair technicians access 
to training information, specialized tools, and service and repair 
information necessary for servicing their customers' vehicles.  
     Almost 500 million non-warranty service events are undertaken each 
year.  While we make every attempt to ensure every element of information 
is readily accessible for every one of these aftermarket repair events, we 
recognize that with literally millions of pages of service and repair 
information that need to be accessed for these repairs, there will be 
instances where needed information may not be readily available or apparent.  
The automakers try to correct these gaps as quickly as possible.  There 
are situations, however, where access to some information is neither 
reasonable nor appropriate -- such as information to override immobilizers 
that are part of theft deterrent/security systems or overwrite vehicle 
safety or emissions operating software.
     In 2000, the National Automobile Service Task Force (NASTF) was 
created to facilitate the identification and correction of gaps in the 
availability and accessibility of automotive service information, service 
training, diagnostic tools and equipment, and communications for the benefit 
of automotive service professionals.  NASTF is a voluntary, cooperative 
partnership between automakers, the independent aftermarket repair 
community, the automotive equipment and tool industry, automotive trainers, 
locksmiths, suppliers, the insurance industry, law enforcement, auto dealers 
and others.  The NASTF inquiry process, which has been highly publicized for 
several years in major trade publications like Motor and Motor Age Magazines, 
has received only 57 requests for help obtaining information for all of 2005. 
In other words, aftermarket repair technicians requested access to repair 
information in .00000019 percent of all repair attempts.  That is six zeros 
to the right of the decimal point!  Of the 57 inquiries, most were resolved 
to the satisfaction of the requestors.  The NASTF complaint process is well 
established at this point, readily accessible on the Internet (at 
www.nastf.org) and every request for information and its respective solution 
is transparent on the International Automotive Technicians Network, a 
well-recognized Internet forum of over 48,000 professional independent and 
dealership automobile repair technicians.
     Working together, the volunteers at NASTF have implemented web based 
links to every automakers' service information website with contact 
information.  NASTF has succeeded in improving communications between 
automaker engineering groups and the Equipment & Tool Institute to ensure 
that scan tool information is readily available to aftermarket tool 
manufacturers.  NASTF has reached out to the locksmith community and 
the National Insurance Crime Bureau and established the NASTF Vehicle 
Security Committee to address the controversial and highly complex issues 
surrounding methods to provide information to automotive security 
professionals without compromising vehicle security and customer safety.
     Since its inception, automakers and the Automotive Service 
Association (ASA), the nation's largest association of independent repair 
shops and technicians have invited all other interested parties to 
participate in the NASTF voluntary process.  
     Last month, NASTF established a board of directors to oversee the 
organization and update its mission, vision, and structure.  The Board 
also elected officers at this meeting.  The Chairman of the NASTF Board is 
with the Equipment and Tool Institute.  The Vice-Chairman is with the 
Automotive Service Association and the Secretary/Treasurer is with 
the Alliance of Automobile Manufacturers.  The Board then chose the National 
Institute for Automotive Service Excellence (ASE) to provide day-to-day 
management of NASTF.  The Alliance believes the formalizing of NASTF is 
another major step that ensures service information, tools, and training 
will continue to be available to independent repair facilities.  Six 
organizations (The Motor Equipment Manufacturers Association, The 
Equipment and Tool Institute, The Associated Locksmiths of America, The 
Association of International Automobile Manufacturers, The Automotive 
Service Association, and the Alliance of Automobile Manufacturers) have 
pledged to fund NASTF for the first year.   

H.R. 2048	
     Turning to the text of H.R. 2048, we continue to have concerns about 
the need for this legislation.  We also have substantial concerns about the 
language of the legislation and at several points its apparent intent.  
	The findings of the legislation are unnecessarily harsh and 
factually inaccurate in many cases.  The language is unfair to the automakers 
that have made significant investments in human and financial resources to 
provide convenient access to service information and tools to all independent 
automotive service providers 24 hours a day, 7 days a week.  Automakers have 
already demonstrated their commitment to making service information and tools 
available and have been doing so for some time.  Although a small number of 
important issues were identified during our negotiations with the Coalition 
for Auto Repair Equality (CARE) Coalition, we did not hear allegations of any 
widespread breakdown of the systems established to resolve service 
information and tool gaps.  For this reason, we strongly take issue with the 
statements in the "findings" section of the bill that concludes that 
automakers have systematically engaged in "a manner that has hindered open 
competition."  This simply is not true.  Since "anticompetitive behavior" is 
illegal under federal and state law, branding all automakers with this 
unfounded conclusion is both unreasonable and places them at legal risk.  
     Moreover, the findings address an issue that goes beyond the scope of 
the legislation:  namely, whether consumers should always be able to choose 
between original parts and aftermarket parts for vehicle repairs.  This issue 
quickly fell off the table during Better Business Bureau discussions and is 
not appropriate for the findings portion of this bill.
     The legislation is not precise in describing the scope of what is being 
sought by the proponents of the bill.  For example, the language appears to 
confuse "service information" with information to design diagnostic "tools."  
It also appears to override the standard and accepted practice of providing 
some service and training information to the independent service providers 
by alternative means other than that used to communicate with dealers.  The 
satellite networks and programs used to communicate with dealers cover a wide 
variety of business support services and are not appropriate for 
use by independent repair facilities.  However, hard copies of materials or 
CD-ROMs of the relevant portions of these broadcasts are often used to 
provide the relevant information on service/repair issues to independent 
facilities.  EPA intentionally carved out this provision from its service 
information rules because automakers cannot be expected to build special 
delivery infrastructures for the aftermarket.  The CARE Coalition has not 
otherwise sought access to the satellite-based information delivery 
system of the manufacturers, and this legislation should not force changes 
in the current practices.
	Section 3 of H.R. 2048 requires "the same service and training 
information related to vehicle repair shall be made available to all 
independent repair facilities in the same manner and extent as it is made 
available to franchised dealerships, and shall include all 
information needed to activate all controls that can be activated by a 
franchised dealership."  This would include, in the case of most automobile 
manufacturers, vehicle security information, the release of key codes, and 
release of immobilizer override information.  This would compromise the 
security systems that have been found to cut auto theft by more than 50 
percent and jeopardize consumers' anti-theft insurance discounts.  This is 
in direct conflict with the purposes of the Motor Vehicle Theft Acts of 
1984 and 1992 that provided a limited exemption from parts marking for 
antitheft devices determined by NHTSA to be as effective as parts marking in 
reducing motor vehicle theft.  The effectiveness of these systems, which are 
now in 75 percent of new models, has been confirmed by the Highway Loss 
Data Institute and a recent study by JP Research, Inc. 
     As another example, 
the text in Section 3 would also require making the "same diagnostic tools 
and capabilities related to vehicle repair" available to the independent 
service provider as are available to franchised dealers.  We do not know 
what is intended by the word "capabilities" in this context.  It could 
mean that manufacturers would have to grant access to their dealer "hot 
lines," which are used to provide one-on-one diagnostic help to dealers 
who call for technical assistance.  Virtually all of these "hot line" 
requests are while the vehicle is still under warranty.  
     In addition Section 3, coupled with the "Findings and Purposes" 
section create an atmosphere of promoting lawsuits under State "little 
FTC laws."  This will lead to an explosion of litigation and the likely 
release of proprietary information.   
     We also strongly object to the language in the bill that says that 
failure of a manufacturer to comply is automatically "an unfair method of 
competition and an unfair or deceptive act or practice in or affecting 
commerce" under the Federal Trade Commission Act.  While automakers will 
always strive to comply with any Federal Trade Commission (FTC) regulation, 
minor discrepancies should not give rise to an automatic pre-determination 
that they reflect the very serious charge of being "an unfair method of 
competition and an unfair or deceptive act or practice."  The FTC has ample 
authority and established legal standards to decide when a regulatory 
violation constitutes "an unfair method of competition" or "an unfair or 
deceptive act or practice."  In fact, the Center for Auto Safety has 
petitioned the FTC (March 13, 2006) to ".investigate the practices of auto 
companies in not releasing programming information for smart keys and 
charging exorbitant fees for nominal programming costs."  To establish a 
new regulatory requirement would be redundant and unwarranted based on the 
lack of a documented problem.  
     Finally, the issues H.R. 2048 attempts to address have never been 
documented or quantified.  In addition, it would:
     <bullet> Create a new federal bureaucracy to oversee the very small 
number of complaints raised each year about lack of information availability.
     <bullet> Establish a process for pursuing state lawsuits based on 
the "right" to this information and the "duty" for automakers to provide 
whatever is deemed necessary.
     <bullet> Jeopardize the intellectual property and proprietary 
information of automakers regarding parts design and vehicle operating 
systems.  Aftermarket parts manufacturers want to produce competing repair 
parts and may allow parts that do not meet original equipment specifications, 
safety or emissions requirements to be used in repairs or vehicle 
modifications.
     <bullet> Require the release of information on vehicle security systems 
and result in increased vehicle thefts. 

     The Alliance, AIAM, ASA and NADA and others continue to address service 
information issues as they arise and believe that legislation is not needed 
to further this process.  We strongly support the recent formalization of 
NASTF, and we will continue to improve the NASTF program that identifies 
occasional gaps in service information and ensures that these gaps are 
quickly remedied.  H.R. 2048 would create an unneeded federal bureaucracy 
to replace the existing voluntary process of providing information and 
resolving disputes.  The FTC and the Better Business Bureau have both 
testified before Congress that the best way to address issues relating to 
service information is through a voluntary, non-regulatory organization -- 
not legislation.  H.R. 2048 may well undermine the unprecedented cooperation 
between automakers and the aftermarket repair community and quite possibly 
destroy the voluntary program (NASTF) developed to deal with service 
information issues. 

	MR. STEARNS.  Mr. Lowe.
        MR. LOWE.  Thank you.  My name is Aaron Lowe, and I am 
testifying in behalf of the Automotive Aftermarket Industry Association 
in support of passage of the Motor Vehicle Owners' Right to Repair Act.
	We are a Bethesda-based trade association whose more than 8,000 
member companies and affiliates manufacture, distribute, sell, and install 
motor vehicle parts and accessories.  Throughout our membership, we 
represent more than 100,000 repair shops, parts stores, and distribution 
outlets.
	The Right to Repair Act is really very simple.  It seeks to ensure that 
manufacturers share the same information and tools with independent 
repair facilities that they provide their new car dealers.  There are many 
car companies that have claimed repeatedly that they are making 
everything available.  Passage of this legislation will impose no new 
requirements since they are already in compliance.  For those that have 
been withholding information and tools, they will need to do what they 
should have been doing in the past, making sure that everybody who 
repairs their vehicles have access to the right information and tools to do 
the job.
	While AAIA strongly supports the passage of right-to-repair 
legislation, we were hopeful that a non-legislation agreement could be 
reached that would provide for a third-party voluntary enforcement 
program.  As we discussed during the November hearing on right to 
repair, the aftermarket met with the car companies last summer at the 
Better Business Bureau to develop a non-legislative alternative to 
passage of H.R. 2048.  Although much progress was made during these 
negotiations, the discussions broke down over three major issues: a 
commitment from the car companies to make all information necessary 
for our tool suppliers to include the same repair and diagnostic 
capabilities that are available to new car dealers through car company 
proprietary tools; two, whether all manufacturers will provide 
independents the ability to access vehicle immobilizer systems for both 
diagnostic and repair purposes.  These systems provide that a chip in the 
key must perform an electronic handshake with another chip in the 
engine system in order for a vehicle to be started.  If certain parts are 
replaced in the engine, the system must be reinitialized.  Further, 
technicians must have the ability to diagnose problems with the 
immobilizer system that, for example, could be preventing the vehicle 
from being started.  Three, an agreement over a system of governance of 
the organization that will oversee a non-legislative agreement that would 
be fair and effective.  Although AIAA fully supports broad 
representation on a full board, there needs to be a smaller executive 
committee that will over see the day-to-day work of the organization.  
The executive committee should be split evenly between the independent 
aftermarket and the car companies to ensure a fair and one that is not 
nominated by one side or the other.  We further agree with the suggestion 
made during the last hearing that the executive board should contain 
independent representatives to ensure fairness and credibility for the 
organization.
	I want to reiterate that AIAA feels strongly that a non-legislative 
agreement that has a strong and comprehensive commitment from each 
manufacturer, which is enforceable by a third party, is preferable over 
legislation.  However, the current effort to formalize NASTF, while a 
step in the right direction, is a long way off from taking the place of 
right-to-repair legislation.  The truth is that the work that was 
accomplished during the Better Business Bureau negotiations last 
summer moved our industries very close to a resolution that not only was 
acceptable, but would go a long way toward improving information tool 
availability for our industry.  Unfortunately, the discussions currently 
taking place at NASTF appear to be making changes that would move us 
further away from an acceptable agreement.  For example, the 
discussions of our third-party enforcement center on developing 
arbitration system that will move any information dispute into a system 
that would be costly and time-consuming and probably rarely used by 
independents.  Further, while the governance structure now approved by 
NASTF has a wide representation from industry, the same groups that 
ran NASTF are still on the executive board in this version of NASTF.  
Unless the organization completely changes its leadership and the way it 
operates, it will continue to be ineffective and lack credibility.
	The bottom line is that we should not be reinventing the wheel, but 
instead building on the progress we made during the BBB negotiations.  
To that end, Coalition for Auto Repair Equality sent a letter to the 
vehicle manufacturers outlining a resolution to the three issues discussed 
previously.  I have attached a copy to my testimony.  On every issue, the 
letter represented an attempt by our industry to compromise our position 
in order to address car company concerns.  To my knowledge, CARE has 
not received a response to that letter.
	Further, at the request of this subcommittee, the aftermarket brought 
some of its leaders to Washington to meet with the manufacturers in 
order to see if the final issues regarding a non-legislative agreement 
could be resolved.  Unfortunately, the manufacturers brought people to 
the meeting that they admitted could not make decisions regarding a 
possible agreement.  Further, they only allotted 1 hour to this meeting, 
and this is insufficient time to seriously negotiate the remaining issues.
	Based on their response, or lack of response, it appears clear to us 
that the manufacturers, despite all of their public talk, do not want to 
resolve this issue and are hoping the legislation just goes away.  
Therefore, on behalf of the broad list of national and State aftermarket 
groups, consumer groups, and small business groups, we urge the 
subcommittee to wait no longer and move soon to enact right-to-repair 
legislation.  U.S. consumers deserve some assurance that the vehicles 
they purchase will be repairable anywhere they choose and that the 
system is not controlled by the manufacturer.
	Thank you for the opportunity to share our views on this important 
issue.  And I look forward to answering any questions you might have.
	[The prepared statement of Aaron M. Lowe follows:]

PREPARED STATEMENT OF AARON M. LOWE, VICE PRESIDENT, GOVERNMENT AFFAIRS, 
AUTOMOTIVE AFTERMARKET INDUSTRY ASSOCIATION

     The Automotive Aftermarket Industry Association is pleased to provide 
testimony in support of the "Motor Vehicle Owners' Right to Repair Act" (HR 
2048) sponsored by Representative Joe Barton and now co-sponsored by a 
bi-partisan list of 102 legislators.  AAIA is a Bethesda, Md.-based trade 
association whose more than 8,000 member companies and affiliates 
manufacture, distribute, and sell motor vehicle parts, accessories, service, 
tools, equipment, materials and supplies. Through its membership, 
AAIA represents more than 100,000 repair shops, parts stores and 
distribution outlets.  
     There has been an independent aftermarket around in this country 
almost since the invention of the automobile.  Most surveys indicate that 
between 70 to 80 percent of car owners choose to patronize independent repair 
shops over the new car dealer for maintenance and repair of their vehicle 
after their new car warranty has expired.  We attract many consumers because 
our members are often more affordable and convenient than the local dealer. 
More often than not, independents are able to provide effective repairs for 
their customers on the same day that they bring their vehicle into the shop.  
This minimizes the inconvenience for today's stressed out car owners and 
keeps repair prices affordable.    
     However, today's highly sophisticated vehicles are posing extensive 
challenges for all service facilities, whether dealer or independent.  
Repairing late model vehicles requires sophisticated tools, information and 
training.  While the independent service industry is more than willing to 
take up this challenge, much of the information and tools are only available 
through the original equipment manufacturer.  As vehicles become 
more sophisticated, the need for enhanced information from the car company 
will only grow.  Some vehicle manufacturers have recognized the importance 
of having an effective independent repair industry and have made the tools 
and information widely and affordably available.  Other car companies have 
either made access difficult, or have totally prevented access to the 
information needed to provide repairs for their late model vehicles.  If 
something is not done, many motorists may find themselves forced to wait 
for appointments with the new car dealers, and paying substantially more 
for the repairs once they are there.  
     The Right to Repair act is really very simple; it seeks to ensure that 
manufacturers share the same information and tools with independent repair 
facilities that they provide to their dealer.  Of course, this is not a free 
ride for the aftermarket since car companies would be permitted to charge 
independents for access to the needed information and tools.  For the many 
car companies that have claimed repeatedly that they are making everything 
available, passage of this legislation will impose no new requirements since 
they are already in compliance.  For those that have been withholding 
information or tools, they will need to do what they should have been doing 
in the past, making sure that anybody who repairs their vehicles have access 
to the necessary information and tools to do the job.
     Let me clear; we are not asking for proprietary or patent information. 
Our manufacturing members do not need access to the car company blueprints 
for developing parts.  In fact, the aftermarket has produced competitive 
replacement parts that are as good, and in many cases, better than the parts 
produced by the vehicle manufacturers.  Sometimes the parts are sourced from 
the same company.  What our members are concerned about is that if access is 
denied to the independent service facilities, our manufacturers and 
distributors will lose their primary market since most new car dealers 
only source from the car company.  
     The trade secret protections provided in the current version of HR 
2048 are virtually the same as those in the Clean Air Act which requires the 
sharing of emissions related service information and tools.  These rules 
have worked for the past 10 years without a single challenge from the 
manufacturers.  Therefore, we are stunned to continue to hear from the 
manufacturers that we are after their intellectual property.  We have made 
it clear to the manufacturers that it is not our intention to obtain this 
information through this legislation and have offered to work with the car 
companies and the committee to clarify this issue.  Thus far, other than 
unsubstantiated allegations, no one has produced any examples as to how the 
current language falls short.  Of course, as we move toward mark-up, we are 
still open to revisit this language in order to ensure that the legislation 
only requires the sharing of the same service information and tools that are 
available to the dealer.
     While AAIA strongly supports passage of right to repair legislation, 
we were hopeful that a non-legislative agreement could be reached that would 
provide for a third party voluntary enforcement program.  As we discussed 
during the November hearing on Right to Repair, the aftermarket met with the 
car companies last summer at the Better Business Bureau to develop a 
non-legislative alternative to passage of HR 2048.  Although much progress 
was made during these negotiations in developing an effective program for 
ensuring service information and tools are available to our industry, the 
discussions broke down over three major issues.  Resolution of the following 
issues is key to ensuring the future competitiveness of the independent 
service industry.  

     1.	Car companies must make all information necessary for our tool 
supplier to include the same repair and diagnostic capabilities that are 
available to new car dealers through car company proprietary tools.  Since 
most independents work on multiple makes and models of vehicles, they often 
purchase tools that contain the capabilities to work on many different 
vehicle makes.  Not only is this more cost effective, but it also ensures 
competition and thus makes the tools more affordable.  While the provision 
to tool suppliers of this information can be subject to whatever commercial 
terms are appropriate, independents need to be able to obtain aftermarket 
tools that have the same capabilities as the dealer tools.   
     2.	Independents must have the ability to access vehicle immobilizer 
systems for both diagnostic and repair purposes.  These systems provide that 
a chip in the key must perform and electronic handshake with another chip 
in the engine system in order for the vehicle to be started.  If certain 
parts are replaced in the engine, the system must be reinitialized such that 
the two chips can talk to each other and the ignition will operate properly. 
Further, technicians must have the ability to diagnose problems with the 
immobilizer system that for example could be preventing a vehicle from being 
started.  While car companies claim that they cannot provide this information 
without risking that a vehicle will be stolen, we are not so certain this is 
entirely true.  Some car companies are currently providing this information 
without jeopardizing vehicle security.  In addition, this information is 
available to the new car dealer which means that it is being shared outside 
of the car company offices.  We do not believe that the dealer is any more 
trustworthy than the independent service industry.  The bottom line is that 
the immobilizer is a major issue in today's repair market and access by the 
independent repair industry must be resolved by every manufacturer or 
competition and car owner choice will suffer as a direct result.
     3.	Governance of the organization that will oversee a non-legislative 
agreement must be fair and effective.  Although AAIA fully supports broad 
representation on a full board by the various parties that are involved in 
the repair industry, we also strongly believe that there needs to be an 
executive committee that will oversee the day-to-day work of the organization. 
In order to ensure fairness, this executive board should be split evenly 
between independent aftermarket and the car companies to ensure that it is 
fair and not dominated by either side.  Furthermore, we agree with the 
suggestion made during the last hearing that the executive board contains 
independent representatives to ensure fairness and credibility for the 
organization.  

     I want to reiterate that AAIA feels strongly that a non-legislative 
agreement that has strong and comprehensive commitments from each manufacturer 
and, that is enforceable by a third party is preferable over legislation.  
However, the current effort to formalize the National Automotive Service 
Task Force (NASTF), while a step in the right direction to improve 
information availability, is a long way off from taking the place of Right to 
Repair legislation.  In fact, it is unclear whether the governance structure 
is sufficiently different from that of the previous NASTF and whether any 
discussions over information availability will be acceptable to us and the 
car companies.  
     The truth is the work that was accomplished during the Better Business 
Bureau negotiations last summer moved our industry very close to a resolution 
that was not only acceptable, but would go a long way toward improving 
information and tool availability for our industry.  Unfortunately, it seems 
that the discussions taking place in the current NASTF arena are attempting 
to make changes to that work that will move us further away from an 
acceptable agreement.  For example, the discussion over a third party 
enforcement program centers on developing an arbitration system that will 
move any information dispute into a system that will be costly and time 
consuming and probably rarely used by independents.  Further, while the 
governance structure now approved by NASTF has a wide representation from the 
industry, the same groups that ran the last NASTF are still on the executive 
board for this version of NASTF; the Automotive Service Association, the car 
companies and the tool companies.  Unless the organization completely changes 
its leadership and the way it operates, it will continue to be ineffective 
and lack credibility.
     The bottom line is that we should not be reinventing the wheel, but 
instead, building on the progress that we made in the Better Business Bureau 
negotiations.  To that end, the Coalition for Auto Repair Equality (CARE) 
sent a letter to the vehicle manufacturers that outlined a resolution to the 
three issues listed previously.  I have attached a copy of this 
letter.   On nearly every issue, the letter represented an attempt by the 
aftermarket to compromise our position in order to address car company 
concerns.  To my knowledge, CARE has yet to receive a response to this 
letter from the vehicle manufacturers.  
     Further, at the request of this subcommittee, the aftermarket brought 
some of its leaders to Washington to meet with the manufacturers in order 
to see if the final issues regarding a non-legislative agreement can be 
resolved.  Unfortunately, the manufacturers brought people to the meeting 
whom they admitted could not make any decisions regarding a possible 
agreement.  Further, the manufacturers only allotted about one hour 
to the meeting, stating that they had a more important meeting to attend.  
     I want to thank the staff of this subcommittee for the extensive 
efforts they have made to help bridge the gap between the car companies and 
the aftermarket.  You have gone way beyond the call of duty to try to obtain 
a non-legislative agreement that would ensure motorists continue to have a 
choice in automotive repair.  However, it appears clear to us that the 
manufacturers, despite all of their public talk, do not want to resolve 
this issue and are hoping that this legislation goes away.
     Therefore, AAIA, consumer groups, and small business organizations urge 
this subcommittee to wait no longer, but to move as soon as possible to enact 
Right to Repair legislation.  Every day, more and more vehicles are entering 
the market, and we can no longer wait while the manufacturers use the present 
process to stall attempts to ensure competition in the vehicle repair market. 
U.S. consumers deserve some assurance that the vehicles they purchase can be 
repaired anywhere they choose and a system that is not controlled by the 
manufacturers.  
     Mr. Chairman and members of this subcommittee, whether you believe the 
manufacturer's contention that everything is available; or if you believe 
the many technicians and shop owners that have come before this subcommittee 
that have questioned this conclusion and warned that competition is being 
threatened; most everyone agrees that car owners should be able to get their 
vehicle repaired where they choose.  This legislation will only serve to 
ensure that car owners remain in the driver's seat when it comes to deciding 
who will repair their vehicle now and in the future.
     Thank you for the opportunity to share our views on this important 
issue and I am available to answer any questions you might have.   


                                ATTACHMENT #1

March 8, 2006

To: Mr. Mike Stanton
Vice President Government Affairs, Alliance of Automobile Manufactures      
       
Mr. John Cabaniss
Director Environment and Energy, Association of International Automobile 
Manufactures


From: David Parde
	 President, Coalition for Auto Repair Equality

RE: RIGHT TO REPAIR NEGOTIATIONS
     As you will recall, at the end of the Better Business Bureau 
negotiations this past summer, several issues were left unresolved at the 
end of the approximately two months of talks.  Those remaining issues 
concerned NASTF Governance, Tools and Tool Information, the cost of Tools 
and how that would be handled in the enforcement process, 
Penalties, and Service Information. Here is our current position on these issues.


GOVERNANCE
     CARE has supported several different configurations of a board, which 
originally included a 4-4 split of interested parties, an evenly split board 
with independent board members added, a completely independent board, and 
most recently we propose a compromise that includes the NASTF proposed board 
with a smaller, executive board composed of the parties of direct interest 
to the issue of information availability.
     We believe that a smaller executive board is justified for several 
reasons.  First, putting aside for the moment the issue of whether the makeup 
of the 15 member board is "fair" or not, we do not believe that the structure 
of the NASTF board is conducive to providing strong leadership in resolving 
the issues, as they may come along, of information availability.  We say this 
for two reasons.  One, we believe that a 15 member board is too large to 
effectively conduct business.  We have consistently maintained 
throughout our negotiations that the board must be kept small to be effective. 
We have always been open to wide participation in working groups and 
committees.  
     Secondly, many of the 15 proposed NASTF board members are duplicative of 
one another and many do not get into the day to day issues of shops obtaining 
the necessary tools and information.  They are involved in the broad issues 
of reparability, but not whether a piece of information is available when the 
car is in the shop.     
     We believe that a smaller evenly divided board could tackle issues of 
information availability in a timely and fair manner, while the broader 
issues that may be only tangentially related to information availability can 
be handled by the larger board.  
     In summary, we believe there is a lot duplication in the NASTF board, 
with the same groups represented multiple times.  Moreover, most of these 
groups aren't directly involved in the issue.  They may be necessary to other 
NASTF concerns, but they do not add value, in our opinion, to resolving the 
core issues.  They do, however, add a lot of uncertainty.
     For these reasons, we would propose a 3-3-2 executive board that is 
composed of CARE and AAIA and AASP, on our side, AAM and AIAM and ASA or the 
Dealers (or whoever you want) on yours, and two independents.  We would 
propose as the independents AAA and AARP or a similar type organization, and 
a consumer group, but if these are not acceptable they could be chosen by the 
FTC upon mutual agreement.

TOOLS / TOOL INFORMATION
     Manufacturers shall make available to equipment and tool companies all 
generic and enhanced (car company specific) Tool Information necessary to 
produce generic tools that contain the same diagnostic and repair 
capabilities that are available to all franchised dealers.
     Restricting only "scan tool information" to the aftermarket is not 
acceptable.  On this issue we cannot move off what was in our final proposal 
before the BBB.
     Tool issues need to be under the control of NASTF, but, the aftermarket 
agrees to leave the details of exactly how this would be implemented to 
future negotiations, if, the manufacturers would commit both to fully provide 
tool information and to a timetable for resolving the details.

COST OF TOOLS
     Reluctantly, we would agree not to press (at this time) to have the 
cost of tools issue be enforced by NASTF.

PENALTIES / ENFORCEMENT
     We accept the $ 2,000 in monetary penalties proposed by the BBB 
document. We continue to demand an independent third party enforcement 
mechanism be put into place. We would recommend that the BBB be that third 
party.

IMMOBILIZERS
     The aftermarket is generally happy with the method being used by Ford 
to resolve this issue. We would recommend and encourage all manufacturers to 
adopt a system like Fords.
     However, we recognize that due to security concerns, certain 
manufacturers feel they cannot provide tool information that is necessary to 
work with vehicle security or immobilizer systems to tool manufacturers. 
Therefore, it is appropriate that the aftermarket and the manufacturers 
develop a method that will permit manufacturers to provide independent 
technicians with the ability to obtain within 24 hours or less, and at a 
fair and reasonable price, the necessary tools and information to fully 
repair vehicles equipped with immobilizer systems. This interim method will 
provide manufacturers with a period of time, not to exceed two (2) years to 
redesign their vehicle systems such that providing the necessary tool 
information to aftermarket tool companies will not jeopardize these systems.

*NOTE* -- we want it recognized that not all problems linked to the
immobilizer systems are security related.

SERVICE INFORMATION
     All service related information shall be made available when it is 
generally available to all dealers.
     Finally, we believe that any final agreement document needs to be 
signed by all manufactures within a reasonable period of time not to exceed 
(2 weeks).  We would like to remind the committee that the CARE board is in 
town on March 15th, and we stand ready and willing to meet with equal 
participants from the manufacturers to resolve these issues at that time.


                                ATTACHMENT #2

       
     Motor Vehicle Owner's Right to Repair Act
             Groups Supporting H.R. 2048

National Aftermarket Groups

Alliance of Automotive Service Providers (AASP) -- www.autoserviceproviders.com
Automatic Transmission Rebuilders Association -- www.atra.org
Automotive Aftermarket Industry Association (AAIA) -- www.aftermarket.org
Automotive Engine Rebuilders Association (AERA) -- www.aera.org
Automotive Oil Change Association -- www.aoca.org
Automotive Parts Rebuilders Association (APRA) -- www.apra.org
Automotive Warehouse Distributors Association (AWDA) -- www.awda.org
Coalition for Auto Repair Equality (CARE) -- www.careauto.org
Consumer Electronics Association (CAE) -- www.ce.org 
Retail Industry Leaders Association (RILA) -- www.retail-leaders.org
Service Station Dealers of America (SSDA) -- www.ssda-at.org
Tire Industry Association (TIA) -- www.tireindustry.org

National Organizations 

AAA -- www.aaa.com
National Federation of Independent Businesses -- www.nfib.com
National Grange -- www.nationalgrange.org
The 60 Plus Association -- www.60plus.org
Mobile Enhancement Retailers Association (MERA) -- www.merausa.org
Motorcycles Rider Foundation -- www.mrf.org

State Aftermarket Groups 

Alliance of Automotive Service Providers
Massachusetts/Rhode Island (AASP-MARI) -- www.aaspmari.org
Minnesota (AASP-MN) -- www.aaspmn.org
New Jersey (AASP-NJ) -- www.aaspnj.org
Pennsylvania/Delaware (AASP-PA) -- www.aasp-pa.org
Automotive Aftermarket Associations (ASAAA) -- www.asaaa.com
Automotive Aftermarket Assn of the Carolinas & Tennessee (AAACT)
Automotive Aftermarket Association Southeast (AAAS) -- www.aaas.us
Automotive Service Councils of California (ASCCA) -- www.ascca.com
Automotive Wholesalers of Arizona (AWOA) -- www.awoaonline.org
Automotive Wholesalers of Illinois (AWOI) -- www.awoi.com
Automotive Wholesalers of Texas (AWOT) -- www.awot.org
California/Nevada Automotive Wholesalers Association (CAWA/NAWA) -- 
www.cawa.org
Chesapeake Automotive Business Association (CABA) -- www.caba.biz
Independent Garage Owners of North Carolina (IGONC) -- www.igonc.com
Florida Automotive Industry Association (FAIA) -- www.faia.org
Kentucky/Indiana Automotive Wholesalers Association (KAWA/IAWA)
Louisiana Automotive Industries Association (LAIA)
Michigan Automotive Parts Association (MAPA)
Midwest Automotive Industry Association (MAIA)
New York State Automotive Aftermarket Association (NYSAAA)
Ohio Valley Automotive Aftermarket Association (OVAAA) -- www.ovaaa.org
Oregon Automotive Parts Association (OAPA)
Pennsylvania Automotive Wholesalers Association (PAWA)
Petroleum Retailers & Auto Repair Assoc. (PRARA)
Rocky Mountain Automotive Wholesalers Association (RMAWA)
Virginia Automotive Parts & Service Association (VAPSA)
Washington Automotive Wholesalers Association (WAWA) -- www.wawa-pas.com
Wisconsin Automotive Parts Association (WAPA) -- www.wapaonloine.com

	MR. STEARNS.  And I thank you.
	Mr. Gorman.
MR. GORMAN.  Mr. Chairman, thank you for the opportunity to 
testify before this committee.
	MR. STEARNS.  You need to put your mic on.  Is it on?  Just move it 
closer.
	MR. GORMAN.  Okay.
	MR. STEARNS.  Just move the mic a little closer.
	MR. GORMAN.  Is that good?
	MR. STEARNS.  That is perfect.  Thank you.
	MR. GORMAN.  Okay.  Thank you.
	I thank you for the opportunity to testify before this committee.   
I am Charles Gorman, the newly-elected Chairman of the National 
Automotive Service Task Force, NASTF.  I am also the Executive 
Manager of the Equipment and Tool Institute, a trade association 
representing the major automotive tool and equipment manufacturers.
	The purpose of my testimony today is to inform this committee about 
NASTF's current situation and its future.  NASTF has been somewhat 
misrepresented by both sides of the right-to-repair debate.  In past 
testimony, one side claimed that NASTF does not attempt to resolve 
complaints regarding the availability of information.  This isn't true.  I 
am also the Chairman of the Equipment and Tool Committee of NASTF, 
and I can tell you that we have made tremendous strides in gathering the 
information necessary to build tools that emulate dealership tools.
	Similar strides are being made in the Vehicle Security Committee.  
They have accomplished several key objectives to help move them closer 
to implementing a Secure Database Release Model and a locksmith 
registry.
	The other side has made some incorrect statements as well.  One 
person testified that last year NASTF received 48 complaints regarding 
service training and tool information.  All 48 complaints were resolved.  
This, of course, isn't true.  There were answers, but in some cases, those 
answers were not what the complainants wanted to hear, or were willing 
to accept.  The current process is a little slow and lacks incentive for 
automakers to comply.
	The reality is that NASTF, although successful, is not as successful 
as it needs to be.  And this brings us to the current situation.
	NASTF is in the process of reorganizing.  On October 19, 2005, after 
the FTC Better Business Bureau negotiations ended without resolution, a 
group of automotive-related associations representing a complete cross-
section of the automotive repair marketplace met to begin the process.  
On November 2, 2005, at the NASTF general meeting, members present 
voted unanimously to go forward with the plan to reorganize.  The 
planning committee met three times.  There were two formal meetings 
facilitated by the Society of Automotive Engineers and one conference 
call.  On April 4, 2006, NASTF's new Board of Directors met for the 
first time and elected officers.
	The goal is to create a permanent organization that can not only do a 
better job of processing complaints regarding missing information, but 
also provide a means of enforcement.
	To date, we have accomplished quite a bit.  We have created an 
initial funding model and received commitments from six key 
associations to fund NASTF for the first year.  We have appointed a 
Board of Directors representative of most of the industry segments.  We 
are currently in negotiations with ASE to incorporate NASTF as a C-6 
not-for-profit corporation.  The ASE will also handle the day-to-day 
management of NASTF, providing us with a full-time staff person, along 
with part-time support in the financial, communications, and IT areas.  
This will allow NASTF to respond quicker to service information gap 
complaints.
	Documents originally drafted as part of the FTC BBB negotiations 
last summer are being edited so that all parties can agree to them. This 
includes the Third Party Arbitration Process document.  There were key 
agreements made during these negotiations last summer, and we will 
keep the momentum going.  There were also some important issues left 
for later in these documents, and we will add language to cover the 
missing segments.  We are off to a great start, but there is still much 
work to be done.  And this brings us to the future.
	In addition to the work that is ongoing, we have specifically 
identified the work items we need to complete.  Among those are things 
such as bylaws and a sustainable funding model, et cetera.
	The Board of Directors has also identified some new goals.  Many of 
the problems relating to information availability stem from the 
automobile manufacturers' inability to predict the need for certain 
information.  Automakers today are not vertically structured as they once 
were.  They no longer own all of the rights to some specific service 
information.  These rights may belong to a component or system 
supplier.  The NASTF Board of Directors has discussed the possibility of 
sponsoring best practices efforts within existing standards organizations, 
such as SAE.  These best practices will provide guidelines to the 
automakers to ensure that the need for service information is included in 
the design and manufacturing processes and included as part of supplier 
agreements.  NASTF's job could be made a lot easier in the future if 
potential service information problems are solved before the vehicles are 
designed and manufactured.
	We have also discussed the role of the Communications Committee.  
Automakers respond to industry and public opinion regarding their 
products.  NASTF will be looking for ways to report to the automotive 
trade press as well as the general press regarding automakers that have 
shown a willingness to provide repair information beyond the minimum.  
We also plan to publicize those instances where automobile 
manufacturers have refused to provide information and the reasons for 
doing so are insufficient.
	It is difficult to get all of the different interests within this industry to 
agree on something as complex as the availability of automotive service 
information, but a good faith effort is underway.  It is my belief that the 
work currently being done by NASTF needs to be done regardless of 
whether it is backed by legislation or not.  Many of the problems facing 
us can only be solved by industry experts.  These experts need a forum 
where problems can be heard and solutions founds.  I believe NASTF is 
that forum.
	[The prepared statement of Charles G. Gorman follows:]

PREPARED STATEMENT OF CHARLES G. GORMAN, CHAIRMAN, NATIONAL AUTOMOTIVE 
TASK FORCE

INTRODUCTION
     Thank you for the opportunity to testify before the Commerce, Trade and 
Consumer Protection Subcommittee regarding H.R. 2048 the "Motor Vehicle 
Owners' Right to Repair Act.  I am Charles Gorman, the newly elected Chairman 
of the National Automotive Service Task Force.  I am also the Executive 
Manager of the Equipment and Tool Institute, a trade association representing 
the major automotive tool and equipment manufactures.
     The purpose of my testimony today is to inform this committee about 
NASTF's current situation and its future.  
     NASTF has been somewhat misrepresented by both sides of the "Right to 
Repair" debate. In past testimony one side claimed that NASTF does not 
attempt to resolve complaints regarding the availability of information.  
This is not true.  I am also the chairman of the Equipment & Tool Committee 
of NASTF and I can tell you that we have made tremendous strides in gathering 
the information necessary to build tools that emulate dealership tools.  
Similar strides are being made in the Vehicle Security Committee.  They have 
accomplished several key objectives to help move them closer to implementing 
a Secure Data Release Model (SDRM) and a locksmith registry.
     The other side has made some incorrect statements as well.  One person 
testified: "Last year, NASTF received 48 complaints regarding service, 
training and tool information.  All 48 complaints were resolved".  This, of 
course, isn't true.  There were answers, but in some cases those answers were 
not what the complainants wanted to hear or were willing to accept.  The 
current process is slow, and lacks incentive for automakers to comply.
     The reality is that NASTF, although successful, is not as successful as 
it needs to be.  This brings us to the current situation.

CURRENT SITUATION
     NASTF is in the process of reorganizing.
     On October 19, 2005 after the FTC BBB negotiations ended without 
resolution, a group of automotive related associations representing a 
complete cross section of the automotive repair marketplace met to begin the 
process.  On November 2, 2005 at the NASTF general meeting the members 
present voted unanimously to go forward with the plan to reorganize.  The 
planning committee met 3 times.  There were two formal meetings facilitated 
by the Society of Automotive Engineers and one conference call.  On 
April 4, 2006 NASTF's new Board of Directors met for the first time and 
Elected officers.
     The goal is to create a permanent organization that can not only do a 
better job of processing complaints regarding missing information, but also 
to provide a means of enforcement.
     To date we have accomplished quite a bit.  We have created an initial 
funding model and received commitments from six key associations to fund 
NASTF for the first year.  We have appointed a Board of Directors 
representative of most industry segments. We are currently in negotiations 
with ASE to incorporate NASTF as a C-6 not-for-profit 
Corporation.  ASE will also handle the day to day management of NASTF 
providing us with a fulltime staff person along with part time support in 
the financial, communications and IT areas.  This will allow NASTF to 
respond quicker to service information gap complaints.
     Documents originally drafted as part of the FTC -- BBB negotiations last 
summer are being edited so that all parties can agree to them.  This includes 
the Third Party Arbitration Process document.  There were key agreements made 
during those negotiations last summer and we will keep the momentum going.  
There were also some important issues "left for later" in those dicuments and 
we will add language to cover the missing segments.  We are off to a great 
start, but there is much work to be done.  This brings us to the future.

THE FUTURE OF NASTF
     In addition to the work that is ongoing, we have specifically identified 
the work items we need to complete.  Among other things these include bylaws 
and a sustainable funding model.
     The Board of Directors has also identified some new goals.  Many of the 
problems relating to information availability stem from the automobile 
manufacturers' inability to predict the need for certain information.  
Automakers today are not vertically structured as they once were.  They no 
longer own all the rights to some specific service information.  These rights 
may belong to a component or system supplier.  The NASTF Board of Directors 
has discussed the possibility of sponsoring "best practices" efforts 
within existing standards organizations such as the Society of Automotive 
Engineers. These best practices will provide guidelines to the automakers to 
insure that the need for service information is included in the design and 
manufacturing processes and included as part of any supplier agreement.  
NASTF's job could be made a lot easier in the future if potential service 
information problems are solved before vehicles are designed and 
built.
     We have also discussed a new role for the Communications Committee.  
Automakers respond to industry and public opinion regarding their products.  
NASTF will be looking for ways to report to the automotive trade press as 
well as the general press regarding the automakers that have shown a 
willingness to provide repair information beyond the minimum.  We also plan 
to publicize those instances where an automobile manufacturer has refused 
to provide information and the reasons for doing so are insufficient.  

CONCLUSION
     It is a difficult task to get all the different interests within this 
industry to agree on something as complex as the availability of automotive 
service information, but a good faith effort is under way.  It is my belief 
that the work currently being done by NASTF needs to be done regardless of 
whether it is backed by legislation or not.  Many of the problems facing us 
can only be solved by industry experts.  These experts need a forum 
where problems can be heard and solutions found.  I believe NASTF is that 
Forum.

	MR. STEARNS.  Thank you, Mr. Gorman.
	I will start off the questions.
	Just sort of a general overview.  Ms. Marzulla, I think that you and 
Mr. Lowe are going to have to make the argument, based on what the 
Federal Trade Commission said that there were no complaints.  They 
don't have the resources if this bill passed.  So you have got to make the 
arguments here.
	Now based upon the evidence, it appears that this bill is not needed, 
but I think you have the heart of most consumers.  They feel that the 
automobile is complicated.  They can't get it fixed.  A little light goes 
wrong, and they have got to pay $150 to have it serviced.  There is just a 
general feeling, I think, to the consumers that, "Golly, I sure would like 
to go to my local gas station to get this fixed, and I have that right."  So 
you know, you have the heart argument, but the facts and the mind 
argument doesn't quite show it.
	Now Mr. Gorman, I understand that you are President of the 
Electronic Tool Institute, also.  And as I understand the Electronic Tool 
Institute, all of the manufacturers have to give you all of the information 
on the parts, is that correct?
	MR. GORMAN.  Right now, the only law that requires that is the 
Clean Air Act.
	MR. STEARNS.  Yes, but for emissions.
	MR. GORMAN.  For emissions-related.
	MR. STEARNS.  Okay.  Have you had any trouble getting the car 
manufacturers to give you all of the information?
	MR. GORMAN.  Yes.
	MR. STEARNS.  You have?  And so--
	MR. GORMAN.  But I want to say that it is just a few.  The majority 
of manufacturers cooperate completely.
	MR. STEARNS.  And over what period of time have you gotten these 
complaints?
	MR. GORMAN.  Oh, complaints?
	MR. STEARNS.  Are they complaints?  Or excuse me, failure to give 
you the information, over what period of time?
	MR. GORMAN.  Well, since the beginning, since there have been, you 
know, computers on vehicles.
	MR. STEARNS.  Okay.  So would that be 15 years?
	MR. GORMAN.  Since 1981.
	MR. STEARNS.  Okay.  So 25 years you have had cases where 
automobile manufacturers would not give you the information?
	MR. GORMAN.  Correct.
	MR. STEARNS.  Okay.  Is it significant enough to say that it is a 
problem?  You said yes earlier.
	MR. GORMAN.  You have to put it in perspective.  It is some--
	MR. STEARNS.  Over 25 years, did you get 100 companies that would 
not--
	MR. GORMAN.  Well, the way we operate--
	MR. STEARNS.  Not 100 companies, but did you get the major 
manufacturers many, many times not give you the information?
	MR. GORMAN.  I think it is safe to say that with major 
manufacturers, we have no problem.  It is just some of the small 
manufacturers, low volume.
	MR. STEARNS.  Okay.  And why is that, do you think?
	MR. GORMAN.  I am not sure.  You know, I think it--
	MR. STEARNS.  Now a lot of these parts that are made are made in 
China, and I think this is for Mr. Stanton, because a lot of the 
manufacturers today manufacture their parts in China, isn't that true?
	MR. STANTON.  All manufacturers are looking for good quality, 
competitive parts.
	MR. STEARNS.  Well, that is a good answer.
	Okay.  I am told that automakers and their aftermarket buy many of 
their parts from the same sources, such as makers Dana and Federal 
Mogo.  If so, why is there concern that H.R. 2048 would somehow allow 
aftermarket parts people to undercut automaker parts?
	MR. STANTON.  Well, I think that the issue goes to whether or not 
the aftermarket will be able to continue, which we think they should be 
able to, to reengineer the part and then sell it or whether or not they get 
the manufacturers' algorithms and plans and specs so it would avoid the 
reengineering of the part.
	MR. STEARNS.  Okay.  I am asking a question that, since Chairman 
Barton is not here, I am going to ask on his behalf.  And Mr. Stanton, this 
would go to you.  In September of 2002, 35 automakers of the 
Automobile Alliance and Association of International Automobile 
Manufacturers signed a letter of agreement with Senator Dorgan to 
provide the information sought by the aftermarket.  And I could give you 
all of the details, the different things they talked about.  So I think 
Chairman Barton's idea was to codify this agreement that you folks 
signed in 2002.  So his question is since everybody signed this agreement 
in 2002, and he feels strongly that this bill just codifies that language.  So 
his question is how does the language in the bill H.R. 2048 differ from 
the language that is in this codification?  I can read it to you, if you want, 
with respect to what information is being asked for.  Why is the language 
in the bill, which mirrors your own signed agreement, somehow 
disagreeable to the automakers?  And please be specific.
	MR. STANTON.  I will try to be as specific as I can.  The agreement is 
that we would provide all of the tools, the training information, and the 
services needed, the same that we give to our dealers, that we make 
available to the dealers.  We would make it available to the aftermarket 
as well.  This legislation does something quite else.  First of all, it creates 
a duty for manufacturers to provide certain information.  And it also 
establishes rights.  And the rights to any person in the United States that 
is 16 years or older will then have the right to this information, the way 
that the bill is currently written.  This presents, in our view, the 
opportunity for regulation where it is not necessary and also for 
litigation, because of the definitions.  And you raised the question earlier 
as to the question of what does the word "capability" mean.  If we have a 
duty, and others have rights, and these are newly-created duties and 
rights, I think it is right for litigation in the States under the consumer 
protection laws.
	MR. STEARNS.  Ms. Marzulla, would you like to reply to that, 
because I think Chairman Barton's basic point is that the folks here, the 
Automobile Alliance, all signed this agreement?  And this draft 
legislation just codifies it.  You have heard that Mr. Stanton does not 
agree, that the agreement he has signed, it goes much further.  What is 
your opinion?
	MS. MARZULLA.  Well, Mr. Chairman, I have to confess that I was 
surprised to hear Mr. Stanton's answer, because, in fact, I have a copy of 
the letter before me, and I was reading it as he was speaking.  It seems to 
me that the legislation pretty much mirrors and tracks pretty darn closely 
the letter.  And of course, if it were entered into as an agreement and 
signed by all of the parties, of course it would likewise create binding 
obligations, contract obligations.  And theoretically, car owners could be 
intended third-party beneficiaries of the agreement likewise able to 
enforce the agreement.  So I am surprised and mystified as to why the 
manufacturers, on the one hand, would be willing to enter into a binding 
contract and yet, at the same time, find the legislation which basically 
tracks almost close to verbatim.  I haven't gone through and done a side-
by-side work check, checking the legislation against the agreement, but 
just a quick side-by-side comparison, it looks pretty darn close.
	MR. STEARNS.  To Lowe and Mr. Gorman and then I am complete.  
Do you have any comments in reference to this discussion on the bill as 
attempting to codify the agreement from September of 2002 that the 35 
automakers have signed?
	MR. LOWE.  Yes, I mean, I actually think it is pretty interesting that 
the biggest problem he had was that it imposed an obligation on them to 
share the information and tools with our industry, which is exactly what 
we are attempting to do.  We are concerned that the letter doesn't provide 
any assurance that would provide that information.  The language 
mirrors it, but what it does is it says, "You will make sure that the 
information is available to our industry."  And that is what we really 
need to have that assurance.
	MR. STEARNS.  Mr. Lowe, staff has advised me, you mentioned in 
your opening statement that Mr. Stanton never replied to you, and I have 
a copy of the letter here of March 14, just for your information.  And you 
are welcome.  We can show it to you.  Is that correct, Mr. Stanton, that--
	MR. STANTON.  That is correct.
	MR. LOWE.  I think the letter didn't respond to our points that we 
made in the offer.
	MR. STEARNS.  But the point is--
	MR. LOWE.  What the letter said was you need to go through this 
other process.
	MR. STEARNS.  But the point is that he did respond.  Yes.
	Mr. Gorman.
	I mean, all I am asking you is if this agreement that they signed in 
2002, these 35 automakers, do you think the codification of that in law is 
a reasonable thing?
	MR. GORMAN.  Yes.  I think that the Dorgan letter is what spurred on 
the founding of NASTF in the first place.  But I think the devil is in the 
details, as usual.  And there is a lot more in the legislation than there is in 
that letter.  And of course, there will be a lot more on top of that when 
you get to rulemaking.  So I think that, in the one case, the letter is very 
flexible whereas in the lawmaking and rulemaking that follows, it would 
become very specific, and I think that is what--
	MR. STEARNS.  Okay.
	And Ms. Schakowsky.
	MS. SCHAKOWSKY.  I would like to follow up on the chairman's 
comments with Ms. Marzulla and Mr. Lowe.
	How do you explain the fact that there are no complaints and the 
FTC has no evidence that this is a problem?
	MS. MARZULLA.  Well, if I could jump in first, and I am sure Mr. 
Lowe could respond to that more directly than I can, because I will 
confess that I am not here as an expert to talk about the complaints and 
so forth, but listening to the chairman's testimony today, I agree that it is 
one of those issues that is sort of hard to get your arms around.  And I 
can speak as a consumer that I, myself, would not necessarily know 
where to go with complaints about my own vehicle, although I am 
immersed in the legalities of the issue.  I think it is one of those issues 
that a consumer has a check engine light come on in his vehicle.  For 
example, I own a 2001 Lexus, and I have driven for months with that 
check engine light on, because I don't want to drive out to Rockville to 
the dealer, you know, to take a morning off from work to go drive to the 
dealer.  I am not going to file a lawsuit.  I haven't filed a complaint with 
the FTC, but it is annoying.  Whereas I have a 1996 RAV-4 that my 
teenage daughter drives.  I can take that car down to the corner garage 
that I have a relationship with.  I can talk to the technician.  I can tell him 
that my teenage daughter drives the car, and he has known my daughter 
since she was a baby.  I can tell him to make sure that the brakes are 
fixed.  I feel comfortable with him.  The dealership repair shop probably 
does an excellent job, but they don't even have my name spelled 
correctly in the database, and every time I have taken the car in for the 
last 5 years, I have to explain to them what my name is, and yes they do 
have my records in the system.  So I think it is just one of those problems 
that perhaps isn't easily measured by some of the more standard 
measuring techniques.
	MS. SCHAKOWSKY.  Mr. Lowe.
	MR. LOWE.  I think, you know, you have to realize that this is an 
extremely competitive industry.  I have been involved in the industry for 
a long time.  Small, competitive shops are working hard to repair that 
car.  The last thing that a car repair shop wants to do is send that car back 
to the dealer unless they absolutely have to.  And when they do find that 
they can't get the information, they are going to go whatever means they 
can to get that information.  And what is happening now in the industry, 
is that they are forced to go behind the back door to get this information 
through the dealer.  They have to get it through friends in the dealer.  
They have to learn how to find it.  The car owner doesn't know why it 
takes--
	MS. SCHAKOWSKY.  Let me interrupt you for a second.
	I am co-sponsor of the legislation, but I think it is a valid question to 
ask.  And the ranking democrat on the Full Committee said that this is a 
solution looking for a problem.
	MR. LOWE.  Yes.
	MS. SCHAKOWSKY.  And let me just say that without some sort of 
concrete evidence that there is a problem, and by that, there are certain 
measurements.  And as someone who has been a long-time consumer 
advocate and organizer, I would say to you that the failure to establish 
that there is some sort of a problem in some sort of a measurable way is a 
very strong argument against this legislation.  And if you have people 
who have run into problems, and if the repair shops have run into 
problems, I would suggest that there has to be some way to quantify that 
in order to bolster the argument.  I think this is a valid critique of the 
legislation.
	MR. LOWE.  Yes.  We have surveyed the service industry, and we 
found that 53 percent of the industry has at least one vehicle per month 
that they have had to send back to the dealer.  We have had 74 percent of 
technicians say they experience problems frequently.  ASA the group is 
supporting it, but members of that group have had problems getting 
information and have had to send cars back to the dealer in fairly 
sizeable numbers.  So we know that there is a problem out there from our 
membership.  We have met with the FTC, and we have presented them 
with specific problems we are having with information.  We didn't do 
this with the chairperson, but with the staff at the FTC, we talked about 
the specific problems that we are having.  So I was a little bit mystified 
by their response to that question.
	MS. SCHAKOWSKY.  Well, I think we need to have some 
documentation that can be presented as part of the argument in this 
discussion of this legislation.  And I think the burden really is on you.  I 
agree with the chairman of the committee that on the face of it, the 
argument is very appealing to consumers, those who have run into the 
problems that Ms. Marzulla has talked about as consumers.  You know, 
we need to have that information in hand, the anecdotal information I 
think is not, in and of itself, sufficient.
	Thank you.
	MR. STEARNS.  Mr. Bass.
	MR. BASS.  Thanks, Mr. Chairman.
	I just have one question.
	If this bill is just about getting information, why shouldn't it just 
contain the following sentence, I am looking it up right now, which is on 
page 5, line 23: "No information necessary to repair a vehicle shall be 
held by a manufacturer if such information is provided directly or 
indirectly to a franchised dealership or other repair facility."  Why not 
limit the bill to that only?  
	MR. STEARNS.  Who are you asking?
	MR. BASS.  I am going to ask it of all four.  And I have got 7 minutes 
and 13 seconds left to get an answer.
	MS. MARZULLA.  I see I am first in line here, so I will grab the 
podium then.
	I guess it could just say that.  I mean, I think that is a fair 
rendition.  I think the letter that was talked about by the chairman earlier, 
the September 20, 2002 letter in which the manufacturers, the Alliance, the 
AIAM, ASA put forward what they thought would be acceptable 
language, however, seemed to serve as a logical and good statement of a 
sort of wholesome way of approaching and solving the issue.  And given 
that the Alliance itself had drafted it, it seems to me that that is a 
reasonable approach as well.  But I think that you put your finger on the 
heart of the issue, the problem, which is that the information should be 
disclosed in a non-discriminatory fashion.
	MR. BASS.  Thank you.
	Mr. Stanton.
	MR. STANTON.  Mr. Bass, that would make a bad bill a lot better.
	MR. BASS.  Thank you.
	Mr. Lowe.
	MR. LOWE.  I think there is some relevance to look into that.
	MR. BASS.  Thank you.
	Mr. Gorman.
	MR. GORMAN.  Yes, I would just like to say that there is direct 
information and there is indirect information, in other words the 
information required to build tools or security access and so on.  As long 
as that would include indirect information to provide those--
	MR. BASS.  It says that in parentheses "directly or indirectly".
	MR. GORMAN.  Then I would--
	MR. BASS.  Thank you very much, Mr. Chairman.
	I have no other questions.
	MR. STEARNS.  I thank the gentleman.
	Ms. Baldwin.
	MS. BALDWIN.  I thank you, Mr. Chairman.
	I, too, have a question that I would like to pose to all of the panelists.
	The National Automobile Service Task Force formally reorganized 
itself in March.  However, as we have heard, the organization has been in 
existence since 2000.  And negotiations between the parties have had 
their high points and their low points.  Please explain where NASTF 
stands in terms of self-regulation, and answer for me whether you believe 
there has been sufficient to allow this system to operate.  And perhaps 
how much time would be sufficient?  How long should we give NASTF 
to settle into its role?
	MS. MARZULLA.  Unfortunately, I am not in a position to really 
comment on that directly.  However, I will note that the first iteration of 
this bill was introduced, as I understand it, in 2001.  That is my 
recollection.  This issue, and this bill, at least a variation of this bill, has 
been pending for 5 years.  It seems like quite a long time has elapsed 
since the issue was first raised, and I know the parties have been working 
diligently for 5 years, at least that is my understanding.  But I will yield 
to those on the panel that can better speak to the issue.
	MS. BALDWIN.  Mr. Stanton.
	MR. STANTON.  Ms. Baldwin, thank you.
	Yes, it is a complicated issue.  And our industry is evolving very, 
very quickly.  And it is kind of like a moving target as far as new 
technology is concerned.  I am sure 5 years ago, some of the things like 
OnStar weren't even thought of that might be covered under this bill.  
We are very, very committed to NASTF.  In the 2 months of the 
discussions, I think the thing that came out is that, by and large, 
manufacturers are providing all of the same service information.  We 
make it available.  But the new systems are complex.  And each 
manufacturer has their own computer system.  And what we found, 
really, what was needed was more information on how to navigate a 
manufacturers' system.  So we want the information to be out there.  We 
want our customers to be happy from the time they purchase the vehicle 
to the time that they sell it.  So we would like to see it move as quickly as 
possible.
	MR. LOWE.  The problem with NASTF is it takes weeks and months 
to get an issue resolved.  You, as an independent mechanic, have a car in 
the shop that day.  You need to get it repaired.  The problem is that there 
needs to be information out there the first time and not having minimized 
the complaints out there.  The reason people don't go to NASTF and why 
they have so few complaints is that when you have that car, you don't 
have time to wait weeks and months.  You have lost that car if you wait 
that long.  So we need to move to put more teeth into this whole process 
in order to get the information process going, whether that is a non-
legislative agreement or whether that is legalization.  There needs to be 
teeth to make the system work.
	MR. GORMAN.  We have given ourselves a year, you know, from 
when we incorporate to get the structure in place, which includes, you 
know, the staffing and all of that.  A lot of it will happen sooner than 
that, but our goal is to do this within a year and then also to have a 
sustainable funding source at the end of the first year.
	MS. BALDWIN.  Mr. Gorman, if I can follow up on that.
	A year to just become fully functioning or a year to resolve the 
pending issues that have yet to be resolved?
	MR. GORMAN.  Well, you know, I can't really say whether we can 
resolve pending issues.  We are trying to remain apolitical on this.  There 
are missing associations on our board, and you know, so I can't say 
whether they will come back to the table or not.  So those issues may 
always exist, but we do have a cross-section on our board, and we feel 
that we can put something together within a year that the industry can 
use.
	MS. BALDWIN.  And then for Ms. Marzulla.
	You testified that automobile manufacturers are increasingly using 
technology to successfully lock out automobile owners from maintaining 
and repairing their vehicles.  You go on to say that "lacking the ability to 
talk to the vehicles' computers, the owners or their technicians can not 
begin to diagnose, service, or repair modern vehicles".  And I am 
sympathetic to this argument, as you heard in my opening statement, 
however, I am also a little confused, because one of the members of 
CARE is Auto Zone, is that correct?
	MS. MARZULLA.  Yes.
	MS. BALDWIN.  And I understand that they have a subsidiary 
ALLDATA advertising that its products and services offer "the 
information and solutions that technicians and shop owners need to 
efficiently repair vehicles and boost shop performance".  So is that 
information available or not?  I am just confused by that.
	MS. MARZULLA.  I think, again, to fully answer your question, I 
would like to be able to get back to you.  But it is my understanding that 
some of the information is available from some of the manufacturers 
with respect to some of the components.  But all of the information all of 
the time from all of the manufacturers is not available.  If you would like 
me to follow up with more information that would directly respond to 
you about your specific question, I would be more than happy to do so.
	MS. BALDWIN.  I would appreciate that.
	MR. STEARNS.  Mr. Murphy.
	MR. MURPHY.  Thank you, Mr. Chairman.
	As I was visiting some of my local independent auto repair dealers 
and car dealers, a couple scenarios came up, and I would like to describe 
it and then ask people to respond to it.  One was the dealer independent 
repair technicians, they showed me a lot of the small computers and the 
devices they would attach to the cars to do the analysis.  They said they 
could only fix certain models of cars with this particular computer.  They 
couldn't fix everything. You had to have different parts and different 
systems for that.  But one told a story where he was trying to replace and 
repair a driver's side power window in the vehicle.  He could install the 
window and the new motor, but it couldn't work, because he couldn't get 
the software needed to have the car recognize a new window was 
installed.  It couldn't go through the system there.  Does that sound like a 
kind of a problem that this is resolvable?
	MR. STANTON.  Mr. Murphy, from our point of view, it should be 
solvable.  That tool should be made available.  The manufacturers make 
the information available to ETI, but then they also sell their own 
diagnostic and scan tools.  So I don't understand why a tool to fit that 
need would not be available.
	MR. MURPHY.  Anyone else?
	MR. LOWE.  Yes, I would like to comment on that.
	A lot of the problems we have in our industry is that you do get all 
of the information to install a part, then you get down to the end and you 
can't get the code to get the car started again or to download the latest 
program onto it.  So--
	MR. MURPHY.  Is that code issue the one that, Mr. Stanton, you 
referred to that is sometimes needed for security of the vehicle?
	MR. STANTON.  No, that is actually a different code.  And it depends 
on who manufactures the tool as to whether or not the codes are there.  If 
it is manufactured by an aftermarket manufacturer, they may freely, for 
competitive reasons, not include every code.  If they buy a tool from the 
manufacturer, it will have the same codes that the dealers have.
	MR. LOWE.  Well, we disagree on that, but you know, I would say 
that in the cases, like if you replace a fuse, sometimes, you have to bring 
the car back to the dealer to get it reinitialized so that the car will start 
and all of the electronic parts on it will work again.  So there are a lot of 
issues that are not necessarily available to the aftermarket in some cases, 
especially with some of the foreign car companies.
	MR. MURPHY.  Another example was that someone was taking care 
of a car that had been in an accident, and part was they got the things 
taken care of, including a new airbag, but the airbag was computer-
controlled and until they got some other work done, the car did not 
recognize there was a new airbag there, and of course the people didn't 
want to have an airbag that had a light on it that says it was not working, 
it was not deployable.  I think in some cases they talk about having to put 
the car on a flatbed, take it to a dealer, have them reset it, and then it is 
there, but it is a larger expense.  Does that sound like a typical problem 
or is that atypical?
	Mr. Lowe, do you want to comment?
	MR. LOWE.  I think that is a typical problem.
	You know, I have a car.  I had the same problem, and they had to get 
the dealer to help reinitialize the system again so that it would start.  It 
was a Volkswagen.
	MR. MURPHY.  Mr. Stanton, are you saying that is not characteristic?
	MR. STANTON.  Well, it depends.  If it has to do with the 
immobilizer and the immobilizer is attached to the vehicle's security 
system, that information, during all discussions, we do not think that 
information belongs out in the general public.  But having said that, we 
are working very, very hard through the NASTF with the locksmiths, 
with the insurance community and with the law enforcement community 
to develop a secure system so that we can get that information out.
	MR. LOWE.  This is not a locksmith problem.  This is a problem with 
diagnosing repairs and repairing cars.  You can fix the key problem, but 
you can't necessarily fix the engine problem the same way, so while they 
are working to do that, they are not helping us out on the engine side.
	MR. MURPHY.  Thank you, Mr. Lowe.
	Mr. Gorman, did you have a comment on that?
	MR. GORMAN.  Yes, in the case of the door panel, it is more of 
identifying a new part on the network.  And if you have a factory tool, 
you could easily do that.  And as we incorporate new capabilities into 
aftermarket tools, you would be able to do that, depending on, again, 
some obscure, you know, vehicle makes and so on.  In the case of the 
SRS, in most cases, that can be done by an aftermarket tool, but there are 
situations where it would require a security, because it is tied to a 
security module, and that would be a problem.  But we are working on 
those things.
	MR. MURPHY.  And Ms. Marzulla, did you have any comments on 
those issues?
	MS. MARZULLA.  No, I do not.
	MR. MURPHY.  Okay.  I thank you, Mr. Chairman.  That is all I have.
	MR. STEARNS.  The gentlelady from Tennessee.
	MRS. BLACKBURN.  Thank you, Mr. Chairman.
	I want to go back, Ms. Marzulla, to you.
	On quantifiable evidence, and I know Ms. Schakowsky was talking 
with you about this, and in November, we had a hearing in this same 
subcommittee and I asked at that time if any of the organizations had 
quantifiable evidence, and you know, we haven't seen it.  But you 
referenced some statistics in your testimony.  And I wanted to know, has 
CARE done any study that shows the number of incidents that the 
companies have experienced in the past year or even in the past 5 years?  
Yes or no.  Have you?
	MS. MARZULLA.  I have referenced the statistics in my testimony, to 
my knowledge, that is--
	MRS. BLACKBURN.  Okay.  I am going to stop you right there, 
because the statistics that you referenced in your testimony are not a 
CARE study.  And you give some stats to highlight the problem.  You 
use an Auto Service Association survey from 2002.  You do a parents 
group study from several years ago that show two million cars turned 
away, but there is nothing that quantifies your footnotes.  I would like for 
you not to respond now.  I would like for you to submit something in 
writing.  You all are saying that there is this problem.  The FTC doesn't 
see a problem.  And, you know, I am just saying where is the issue.  Mr. 
Lowe comes along and says that there have been problems in 74 percent 
of the repairs.  You know, those are the things that we need in writing so 
that we have some documentation and we don't come back in here and 
have a lot of anecdotal, trying to get us to legislate on something that 
doesn't seem to be a problem.
	So I would appreciate that.
	Also, Ms. Marzulla, you argue that case law shows that the Supreme 
Court has traditionally supported the right of the consumer to repair a 
product that they purchased.  And you gave some testimony on that fact.  
Are you currently addressing any situations in the court or not?  Yes or 
no.
	MS. MARZULLA.  With respect to this issue?
	MRS. BLACKBURN.  Yes, ma'am.
	MS. MARZULLA.  No, I am not.
	MRS. BLACKBURN.  Okay.  And would this legislation provide you a 
greater legal standing to pursue this in the courts or not?
	MS. MARZULLA.  I don't think so.  I think my answer is no.  And I 
just wanted to say, I would be happy to provide those statistics.
	MRS. BLACKBURN.  Very good.  Thank you.  I would like to see 
those.
	I would like to ask you also about your member organizations, and 
Mr. Lowe, I am going to come to you with the same question on this.
	I have talked to some of my tool and die manufacturing guys.  And 
one of the things that we are concerned about is manufacturing that is 
moving to China.  So what I would like to know is how much from your 
member organizations, and you all may submit this to me in writing, I 
don't want to vote for something that is going to send manufacturing to 
China and take it out of our manufacturing plants here.  And what I am 
hearing from some of our guys is they think this might be a problem, that 
you are trying to get their IP to go manufacture these things over in 
China and then bring them back here, sell them at the same price with a 
greater markup and increase profits.  So if that is not true, I want you to 
refute that.  But again, I don't want this anecdotally.  I would like to have 
this in writing.  I want to know how much of your manufacturing occurs 
overseas or specifically in China as opposed to in the United States.  And 
if this bill requires part specifications to be released and easily provides 
for reverse engineering, what will prevent this technology from getting 
into the hands of the Chinese or those that would like to be off-pricing 
and knocking off these parts and moving it into our aftermarket parts 
manufacturers?  We know that that creates a liability issue for many of 
our small business manufacturers.
	Yes, sir.  You may respond.
	MR. LOWE.  Okay.  Thank you.
	First of all, this bill does not provide any opportunity for us to get 
specifications for parts or blueprints or patents from the manufacturers.  
It doesn't expand that.  I think the one thing that we agree with the 
manufacturers is that they don't want to provide us that information.  We 
aren't asking for that information.  If there is a difficulty in the language, 
we would be more than happy to work and resolve that.
	MRS. BLACKBURN.  Okay.
	MR. LOWE.  As far as your question regarding China, of the $81 
billion of auto parts that are imported from--
	MRS. BLACKBURN.  How much again?
	MR. LOWE.  Eighty-one billion dollars.
	MRS. BLACKBURN.  Eighty-one billion dollars.  Okay.
	MR. LOWE.  Of those that come into the United States from overseas, 
only about $4 billion come in from China.
	MRS. BLACKBURN.  Okay.
	MR. LOWE.  And that is ITC stats.
	I don't see how this bill would provide any ability that would, you 
know, grow that in any way from China.  This bill really only is directed 
at service information and tool information, not parts.
	MRS. BLACKBURN.  Thank you.
	My time has expired.
	MR. STEARNS.  I thank the gentlelady.
	We have completed our questions.  I think I will just, on behalf of 
Chairman Barton who is not here, follow up with a question I think he 
would want to ask after the gentleman from New Hampshire, Mr. Bass, 
offered an abridgement of the bill in which he said that the whole bill 
would come down to "no information necessary to repair vehicles shall 
be withheld by a manufacturer if such information is provided directly or 
indirectly to a franchisee, dealership, or other repair facilities."  And he 
asked each of you, if that was the bill, would you accept it, and so would 
you like to reiterate, for the chairman's benefit, particularly you, Mr. 
Stanton, do you think you and all of your members, if the bill H.R. 2048 
came down to that one sentence, and of course there would be some, you 
know, boilerplate language dealing with enforcement, but if that was the 
gist of the bill, would you and your members accept it?
	MR. STANTON.  I think there are two points on that, Mr. Chairman.  
One is I really think that we ought to have federal legislation when it is 
necessary, when it is called for.  We don't think that there is a case here.  
The problems that are out there we are trying to address through the 
NASTF, and we would hate to see the start of a legislative process that, 
in the end of the day, might not end up the same way that it starts.
	The second point is that we have argued all along that there does 
need to be a cut-out for vehicle security issues.  This is extremely 
important.  Motor vehicle theft has grown over time.  This committee 
addressed it back in 1984 and then again in 1992.  And these anti-theft 
devices that are proven to be effective in cutting motor vehicle theft, I 
don't think anyone wants that information out in the general domain.  
And the language that you were talking about would not have a carve-out 
for anti-theft devices, and we think that is critically important.
	MR. STEARNS.  Would anyone else like to answer?
	MR. LOWE.  I would like to respond to the anti-theft issue really 
quickly, because while the anti-theft issue, the immobilizer, is huge 
because it includes being able to diagnose problems.  If a car can't start, 
it could also be due to the immobilizer system.  But some manufacturers 
have been able to provide that information to our industry, such as Ford, 
and done it in a way that prevents theft of the car.  And if Ford can do it, 
we don't understand why other manufacturers can't work on their 
systems.  We offered in our compromise to say let us give a couple of 
years for them to develop and make sure that their systems can prevent 
theft but still make sure the information is out there.  This is probably 
one of the biggest complaint areas we are getting from our members is 
they are having difficulty, when they finish the repairs, restarting the car 
or diagnosing some problems with the immobilizing system.  It 
absolutely needs to be solved.
	MR. STEARNS.  Ms. Marzulla, Mr. Stanton's point is that sometimes 
this one-sentence legislation, as it goes through the process, changes 
dramatically and so forth.  Even before you start legislation with one 
sentence, you would have to define what "information" means, because it 
says "no information necessary to repair a vehicle shall be withheld".  
Can you, here today, tell me what the definition of that word 
"information" is?  I mean, do you feel comfortable with a good 
definition?  Could you give it to me?
	MS. MARZULLA.  I don't know that off the top of my head.  I can 
give you a complete definition.  I think that was one of the reasons why 
the drafters of the bill had the wisdom to suggest that FTC might 
promulgate regulations that would flush out some of these definitions, 
but I would suspect that we all understand that we are talking about the 
information necessary to allow the computers' replacement part to talk to 
the system in which the part would be placed or that would allow a 
technician to diagnose and be able to complete the repairs in the cars.  I 
think it boils down to something that simple, and I think that was the 
beauty, a simple, elegant solution that was suggested.  The one addition I 
might add to that, however, is that there be explicit protections for the 
intellectual property rights of the manufacturers.  I think that is an 
important component.  And Mr. Stanton, I am surprised you didn't call 
for that yourself, but I certainly think that that would be something that 
would need to be in the legislation.
	MR. STEARNS.  Mr. Stanton, you know, the question I asked from 
Ms. Marzulla about defining "information", do you feel that 
"information" can be defined?  I mean, with you and all your members, 
is that word "information" pretty much clearly understood?
	MR. STANTON.  No, sir; it is not.  That has been one of the problems.  
As our industry moves forward, information today, and this is one of the 
things we have struggled with.  For example, I used this before, but I 
think since 2004, under the GM OnStar program, you can sign up, and 
they will actually track the information that you need and give you the 
information when you are due for an oil change, for an example.  That is 
information.  That is repair information.  Would that be covered?  Would 
that not be covered?  And then look in 2008 and what the technology that 
is coming down the road and what will be implemented into the new 
vehicles, I don't know if we know enough today to define the word 
"information" satisfactorily.
	MR. STEARNS.  But in 2002, the 35 automakers signed an agreement 
where the word "information" was used, Mr. Stanton.  So I see it in the 
agreement.  It is right here. And evidently, you signed this agreement, 
and it has service information, training information, diagnostic tools, and 
to the same extent.  So--
	MR. STANTON.  And that was a big qualifier.  And that letter was not 
easy to come by, too, Mr. Chairman.
	MR. STEARNS.  But it would admit that you have signed on to some 
understanding of what "information" met in this.
	MR. STANTON.  Absolutely.  And I want to assure the committee that 
our members want the information out there.  That is not the issue.  We 
want it out there, and there are qualifiers in there, which is really the 
same information that we give to the dealer or make available to the 
dealer as well.  And when we had our discussions back in August and 
September, that fell off the table almost immediately as long as we put 
the litmus test there that said if we make it available to our dealers, we 
are more than willing to make it available to the aftermarket.  And we 
will still stand by that.
	MR. STEARNS.  All right.
	Mr. Gorman, do you want to have the last word or Ms. Schakowsky?
	Yes, Ms. Schakowsky.
	MS. SCHAKOWSKY.  If we could just put that agreement into the 
record, if we could get unanimous consent.
	MR. STEARNS.  Yes, by unanimous consent, I will put this agreement 
that was signed into the record.
	[The information follows:]

<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>

        MR. STEARNS.  Mr. Gorman, we are going to close here, and I--
	MR. GORMAN.  Yes.  Without taking a position on the bill itself, 
there is a definition that already exists within the Clean Air Act, 40 CFR, 
I believe.
	MR. STEARNS.  So that everybody could understand what 
"information" means.
	MR. GORMAN.  Yes.  It is a little old and may need to be revisited, 
but it does exist.  And I believe the Dorgan letter refers to CARB 
regulations, which also has the definition.
	MR. STEARNS.  Okay.  With that, we will end the subcommittee, and 
I thank the second panel.
	[Whereupon, at 12:15 p.m., the subcommittee was adjourned.]


RESPONSE FOR THE RECORD BY AARON LOWE, VICE PRESIDENT, GOVERNMENT AFFAIRS, 
AUTOMOTIVE AFTERMARKET INDUSTRY ASSOCIATION



June 21, 2006

The Honorable Cliff Stearns
Chairman, Subcommittee on Commerce, Trade, and Consumer Protection
2125 Rayburn House Office Building
U.S. House of Representatives
Washington, DC  20515

Dear Chairman Stearns:

Enclosed, please find my responses to questions that were directed to me by 
a Member of the Committee as a result of the May 17, 2006 hearing before the 
Subcommittee on HR 2048, The Motor Vehicle Owners' Right to Repair Act of 
2005.   

Please feel free to contact me should you have any additional questions or 
need any clarification regarding my responses.

Sincerely,


Aaron M. Lowe
Vice President
Government Affairs 

Responses from Aaron Lowe, Vice President to Government Affairs for the 
Automotive Aftermarket Industry Association (AAIA) to questions from the 
Honorable Joseph R. Pitts:

     1.	Can you tell me a little about the CARE that supports this 
legislation?  It's my understanding that it is made up largely of Fortune 
500 parts distributors and their local distribution and service outlets, 
not independent repairers.  Is that correct?  

Response:

Since the Coalition for Auto Repair Equality (CARE) was represented as a 
witness at the hearing, we feel that it is more appropriate that this 
question be directed to CARE for response.  While AAIA and CARE share some 
members, we are separate organizations that support passage of Right to 
Repair.  In addition to CARE and AAIA, the coalition supporting passage of 
Right to Repair legislation is composed of a large number of organizations 
representing independent repair shops.  This includes the Service Station 
Dealers of America with 10,000 independent repair shops; Alliance of 
Automotive Service Providers with 7,000 independent repair shops, Tire 
Industry Association with 40,000 shops, National Federation of Independent 
Businesses that represents 24,700 independent repair shops, and AAA with 
7,000 approved auto care facilities.

     2.	Do you represent independent repairers or parts distributors?  How 
many independent repair shop owners sit on your AAIA or the CARE Board of 
Directors?  How many Fortune 500 companies sit on CARE's Board of 
Directors?

Response:

AAIA is comprised of virtually every segment of the vehicle aftermarket 
including manufacturers, distributors, retailers and installers of automotive 
parts and accessories.  Our membership is further comprised of large, medium 
and small businesses.  Independent service facilities have their own segment 
under the AAIA umbrella called the Car Care Professional Network.  This 
segment represents the interests of 70,000 independent service and repair 
shops around the country.  The governing board for CCPN is composed of 
independent repair shop owners, state groups representing service facility 
owners, technician training organizations and other groups that serve this 
industry.    

Again, we urge that you direct any specific questions regarding the 
composition of CARE or its leadership to that organization.  


RESPONSE FOR THE RECORD BY MICHAEL J. STANTON, VICE PRESIDENT, GOVERNMENT AND 
INTERNATIONAL AFFAIRS, THE ALLIANCE FOR AUTOMOBILE MANUFACTURERS

<GRAPHICS NOT AVAILABE IN TIFF FORMAT>

     The Alliance of Automobile Manufacturers has been very concerned about 
the "findings" provision of H.R. 2048.  The findings are factually inaccurate 
in many cases and unfair to the vehicle manufacturers that have made 
significant efforts to provide service information and tools to the 
independent service provider sector.  The question identifies a good example.  
Contrary to the "finding" regarding the alleged restriction of access to 
information, the record shows that service information and tools are generally 
available to the independent service provider sector, and that auto 
manufacturers have made great strides in meeting the information needs of the 
independent service providers.  The Alliance has been concerned that these 
baseless findings unreasonably increase the risk of litigation against the 
manufacturers by consumers, independent garages or others.  
     During the recent Subcommittee markup, the "findings" were deleted, and 
a new provision was added, expressly stating that the bill does not give rise 
to a private right of action.  While these were helpful steps in addressing 
the risk of private litigation arising directly from this legislation, it 
does not address all of the litigation risks the Alliance has previously 
identified.  For example, the legislation expressly preserves the right of 
a State attorney general to proceed against automobile manufacturers under 
state consumer protection laws, even if the action is premised on an alleged 
violation of the "duty to disclose" newly created by the Federal legislation. 
And, the legislation does not preempt the states from enacting mirror-image 
laws that could give rise to private lawsuits.    


SUBMISSION FOR THE RECORD BY THE HONORABLE DEBORAH PLATT MAJORAS, CHAIRMAN, 
FEDERAL TRADE COMMISSION

<GRAPHICS NOT AVAILABE IN TIFF FORMAT>


SUBMISSION FOR THE RECORD BY GARY SHAPIRO, PRESIDENT AND CEO, CONSUMER 
ELECTRONICS ASSOCIATION

<GRAPHICS NOT AVAILABE IN TIFF FORMAT>

SUBMISSION FOR THE RECORD BY PAUL T. KELLY, SENIOR VICE PRESIDENT, FEDERAL AND 
STATE GOVERNMENTAL AFFAIRS, RETAIL INDUSTRY LEADERS ASSOCIATION

<GRAPHICS NOT AVAILABE IN TIFF FORMAT>

 	This written statement presents the views of the Federal Trade Commission. Responses to 
questions reflect my views and do not necessarily reflect the views of the Commission or any other 
Commissioner.  
 	15 U.S.C. 41 et seq.
 	15 U.S.C.  7701 and implementing regulations.
 	15 U.S.C.  7601 and implementing regulations.
 	Pub. L. No. 108-159, 117 Stat. 1952 (Dec. 4, 2003), codified at 15 
U.S.C.  1681 et seq. 
 	Pub. L. No. 109-58, 119 Stat. 594 (Aug. 8, 2005).  Section 137 of the 
Energy Policy Act of 2005 amended the Energy Policy and Conservation Act of 
1975 ("EPCA"), 42 U.S.C.  6291 et seq.
 	U.S. Census Bureau, STATISTICAL ABSTRACT OF THE U.S. (2006).
 	15 U.S.C.  45.
 	15 U.S.C.  57a(a)(1)(B).
 	Some of these concerns were expressed in a letter from the Commission 
to Ranking Member John D. Dingell, October 8, 2004.
 	NASTF was formed by a group of automotive trade associations to aid 
in the provision of timely service information needed by independent repair 
facilities.   Members include the Alliance of Automobile Manufacturers, the 
Alliance of Automotive Service Providers, the Automotive Aftermarket Industry 
Association, and the Associated Locksmiths of America.
 	In addition, third-party information providers, such as ALLDATA and 
Mitchell, can provide useful services to automobile repair facilities.  The 
amount of auto repair data available is voluminous and not always easily 
accessible.  By packaging data for sale, third-party information providers 
can allow repair facilities to access necessary technical information with 
the speed the marketplace demands.


</pre></body></html>
